<html>
<title> - THE SAFETY AND SECURITY OF LIQUEFIED NATURAL GAS TERMINALS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
       THE SAFETY AND SECURITY OF LIQUEFIED NATURAL GAS TERMINALS 

=======================================================================

                                (110-37)

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                     MAY 7, 2007 (Farmingville, NY)

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                     U.S. GOVERNMENT PRINTING OFFICE

35-919 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)

  


        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

GENE TAYLOR, Mississippi             STEVEN C. LaTOURETTE, Ohio
RICK LARSEN, Washington              DON YOUNG, Alaska
CORRINE BROWN, Florida               HOWARD COBLE, North Carolina
BRIAN HIGGINS, New York              WAYNE T. GILCHREST, Maryland
BRIAN BAIRD, Washington              FRANK A. LoBIONDO, New Jersey
TIMOTHY H. BISHOP, New York          TED POE, Texas
VACANCY                              JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (Ex Officio)
  (Ex Officio)

                                 (iii)


























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Boynton, Captain Peter, Captain of the Port_Long Island Sound, 
  United States Coast Guard......................................    19
Flynn, Steven E., Jeane J. Kirkpatrick Senior Fellow for National 
  Security Studies, Council on Foreign Relations.................    36
Foley, Brian, Supervisor, Town of Brookhaven.....................     6
Gaffigan, Mark, Acting Director of Natural Resources and 
  Environment, Government Accountability Office..................    19
Hritcko, Jr., John, Senior Vice President and Regional Project 
  Director, Broadwater Energy, LLC...............................    36
Johnson, Bruce, Riverhead Town Fire Marshal, Wading River Fire 
  Department.....................................................    36
Levy, Steve, County Executive, Suffolk County....................     6
McGintee, Bill, Supervisor, Town of East Hampton.................     6
McCarrick, Kevin, Councilman, Town of Brookhaven.................     6
O'Malley, Mark, Chief, Office of Ports and Facilities Activities, 
  United States Coast Guard......................................    19
Robinson, Mark, Director, Office of Energy Projects, Federal 
  Energy Regulatory Commission...................................    19

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Flynn, Stephen E.................................................    59
Foley, Brian X...................................................    67
Gaffigan, Mark...................................................    70
Hritcko Jr., John................................................    81
Johnson, Bruce...................................................    87
Levy, Steve......................................................    92
McGintee, Bill...................................................    97
McCarrick, Kevin T...............................................    99
O'Malley, Mark...................................................   103
Robinson, J. Mark................................................   112

                         ADDITION TO THE RECORD

Marc S. Alessi, New York State Assemblyman, written testimony....   153
Marine Engineers' Beneficial Association, William P. Doyle, 
  Deputy General Counsel, written testimony......................   155

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         SAFETY AND SECURITY OF LIQUEFIED NATURAL GAS TERMINALS

                              ----------                              


                          Monday, May 7, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
   Subcommittee on Coast Guard and Maritime Transportation,
                                                  Farmingville, NY.
    The subcommittee met, pursuant to call, at 10 a.m., at the 
Town of Brookhaven Auditorium, One Independence Hill, 
Farmingville, New York, Hon. Tim Bishop presiding.
    Also Present: Representative DeLauro.
    Mr. Bishop. The hearing will come to order. Good morning, 
all of you. Welcome to this field hearing on the Subcommittee 
on Coast Guard and Maritime Transportation. My name is Tim 
Bishop. I have the honor of the representing New York 
Congressional District One in Congress. I am joined this 
morning by Congresswoman DeLauro from Connecticut.
    I wish to apologize for Mr. Cummings who called early this 
morning to tell us that he's quite ill and will not be able to 
be with us. And Representative LaTourette, the ranking member 
of the committee, learned late last week that he would be 
unable to attend this hearing as well.
    Before we begin I ask unanimous consent that Congresswoman 
DeLauro be allowed to join the subcommittee for today and 
participate in this hearing. Without objection, so ordered.
    I also ask that all members have five legislative days in 
which to revise and extend their remarks. Without objection, so 
ordered.
    I want to thank Chairman Cummings for agreeing to this 
field hearing. His leadership and commitment to the issues that 
we will be discussing today have been essential to this 
committee's ability to perform its various responsibilities. I 
would also like to thank my distinguished colleague and friend 
from Connecticut, Congresswoman DeLauro, for coming over the 
Sound to participate in today's hearing.
    I would also like to extend my gratitude to Brian Foley, 
the supervisor of the Town of Brookhaven, and his colleagues on 
the Brookhaven Town Board for serving as our hosts for today's 
hearing.
    And I would also like to thank all of the panelists who 
will be participating in today's hearing.
    For the record, I oppose the Broadwater proposal to place 
the liquefied natural gas terminal in the middle of Long Island 
Sound. The vast majority of those I represent in the first 
Congressional District of New York are opposed to the 
Broadwater proposal. Virtually every elected official in 
Suffolk County is opposed to Broadwater.
    Practically all of us, our opposition is rooted in two 
areas of concern; environmental impacts and safety and 
security. The environmental concerns are self-evident and have 
been well chronicled by the various government agencies, 
environmental groups, and academic studies.
    Among government agencies, serious concerns have been 
raised by the New York Department of Environmental 
Conservation, National Marine Fishery Service, United States 
Department of the Interior, United States Environmental 
Protection Agency, and the U.S. Army Corps of Engineers.
    However, environmental concerns are not the focus of this 
hearing. This hearing will focus on the multiple safety and 
security concerns presented by the Broadwater proposal as well 
as the cumulative impact to the approximately 40 other proposed 
LNG terminals nationwide.
    More specifically, this hearing will focus on the capacity 
of the United States Coast Guard to ensure the safe operation 
of the Floating Storing Regasification Unit and the delivery of 
LNG to FSRU, and to do so while still maintaining its core 
functions of homeland security, rescue and recovery, drug 
interdiction, border protections, among others.
    It is my hope that this hearing will provide much more 
information than is currently available on the safety and 
security challenges associated with dozens of new LNG 
terminals.
    What do we know thus far?
    We have the Coast Guard Waterways Suitability Report which 
states that Broadwater will not impair the waterway assuming 
that the Guard is provided the resources necessary to, quote, 
"implement the measures that have been identified as being 
necessary to effectively manage the potential risk to 
navigation safety and maritime security associated with the 
Broadwater Energy proposal," close quotes.
    However, with these requirements, there have been no 
estimates of cost. In fact, the Coast Guard has said it will 
not determine the true costs of protecting the facility until 
after the FERC approves the terminal. Thus, the scenario exists 
of one government agency giving the green light to a massive 
facility with enormous security implications prior to another 
government agency saying it has the resources required to 
secure it.
    What else do we know?
    A CRS report, using the existing Everett Terminal in 
Boston, conservatively estimates a security cost of $40,000 per 
tanker shipment of LNG, and this number would be combined with 
expected levels of delivery, will amount to annual security 
costs of $24 million in 2008 growing to $120 million in 2030. 
And this does not consider costs to local and State security 
agencies. Who will pay these costs?
    There is also the recent GAO report that raises more 
questions than it answers regarding the consequences of an 
accident or terrorist attack. This report highlights that we do 
not have adequate data regarding the consequences of 
catastrophic failure. While there is more information 
forthcoming from both the GAO and the Department of Energy, it 
is possible that the Broadwater project will be approved before 
all of this information comes to light.
    We also know that there are no U.S.-flagged vessels 
delivering LNG anywhere in the world. This means that the Coast 
Guard has no authority over crews, their training, or there 
experience as they would if the vessels were U.S. flagged and 
are operating at senior levels by U.S. merchant mariners.
    Thus we have a situation that these massive tankers, with 
four times the energy potential of the bomb dropped on 
Hiroshima, are crewed by people whose background, training, and 
expertise are completely unknown to the Coast Guard.
    We also know that Coast Guard resources are currently 
stretched thin. This committee is investigating the Deepwater 
fiasco which has taken significant other Coast Guard assets off 
line. We also know given this situation that a Coast Guard 
request for additional assets to the Congress could not 
possibly come at a worse time.
    The important role of an oversight committee is not simply 
the answers it receives but asking the right questions. The 
question today is not does Long Island need more natural gas? 
The answer to that is yes. My question is, is Broadwater the 
most efficient, safest way to bring more natural gas to Long 
Island?
    There are alternative solutions that would not require the 
same level of security or pose the same risks to the 
environment as Broadwater.
    In the context of this committee's jurisdiction, the 
question we must ask is: At what price can the Coast Guard 
secure Broadwater? What resources will it require? What are the 
costs of those resources? Who is bearing those costs? What 
existing functions will suffer because the Coast Guard must 
shift resources to secure Broadwater? And how will the Coast 
Guard find the resources for 40 other LNG terminals?
    The responsibility of this subcommittee is to ask these 
tough questions, get answers, and make informed choices that 
are in the best interest of protecting our communities.
    I thank you and I look forward to hearing from our 
panelists.
    Congresswoman DeLauro, would you like to make an opening 
statement.
    Ms. DeLauro. Yes.
    Mr. Bishop. Congresswoman DeLauro now has five minutes.
    Ms. DeLauro.  Thank you and good morning to all. I'm 
delighted to be here and to be invited to be part of this 
effort and to be, if you will, accepted as an, on a 
nonpermanent basis, to be a part of this subcommittee. By the 
way, I would like to say that this is just a beautiful 
facility, Congressman Bishop, and I love the art work, and it's 
a beautiful day and I came across the Sound this morning along 
with the Coast Guard and it was a beautiful, beautiful trip.
    I, too, would like to say a thank you to Chairman Cummings 
who isn't here but I wanted to thank him for his work with the 
Subcommittee on Coast Guard and Maritime Transportation. He is 
from Baltimore where one LNG terminal already exists and 
another has been proposed. He understands the issues that 
surrounds these facilities and we all look forward to our 
continued conversations with him and drawing on his 
experiences.
    I want to thank, very, very sincerely, thank my colleague 
Congressman Tim Bishop. No one in the Congress is more commited 
to protecting the Long Island Sound than Tim Bishop. 
Congressman Bishop's tireless efforts have shown his keen 
understanding of the Sound's important role in our lives and 
understands that we must urgently come together to protect it.
    We have come together today to discuss an issue of local 
and national importance, the studying of LNG terminals. We will 
address the specific example of the Broadwater proposal in the 
middle of Long Island Sound, one example which has many 
implications for the entire country. The issues it raises 
include energy prices, our reliance on foreign energy, because 
LNG is indeed a foreign fuel, security, environmental hazards, 
Coast Guard resources, and the impact on local first 
responders.
    With 28 million people living within 50 miles of its 
shores, Long Island Sound contributes more than $5 billion 
annually to our economy. It is the life blood providing 
environmental, recreational, and economic opportunity for many 
of our communities.
    And as you may know, Long Island Sound is held to the 
citizens of Connecticut and New York under the Public Trust 
Doctrine. Over the years, both States have taken this 
responsibility seriously and acted to preserve and protect the 
Sound and its habitat for the benefit of its surrounding 
communities.
    I believe that this project violates that public trust. Its 
approval would most certainly set the precedent for further 
industrialization of the Sound, as we have seen over the last 
several years with the approval of many projects each larger 
than the last.
    Broadwater is just across the Connecticut New York border 
in the Sound. It would effect our State as much as it would 
effect New York. Yet Connecticut has no formal role in the 
decision to put this facility in the Sound. Connecticut should 
have a seat at this table with this process. If there are going 
to be tankers in Connecticut's waters, Connecticut ought to 
have a say in this process.
    I believe that Connecticut has a unique role in this 
discussion and a unique perspective to offer the debate. If 
Broadwater became a reality, it would install a floating vessel 
roughly the size of the Queen Mary II. I've been on the Queen 
Mary II. It gives you some sense of the enormity of this 
project.
    Ten point two miles off the Connecticut coast, nine miles 
off the Long Island Coast. The proposal also calls for the 
installation of a 25 five mile pipeline right in the middle of 
prime territory for both lobstering and fishing. This threat 
comes at a time when we have now just begun to see some signs 
of recovery in the lobstering industry.
    In addition, through a new permanent 1200 foot by 180 foot 
vessel in our waters, the Broadwater proposal would establish 
so-called exclusionary zones prohibiting any vessels from 
coming within a certain distance from both the facility itself 
and the delivery tankers.
    It would take the entire security zones surrounding a 
moving tanker 15 minutes to pass any given point, potentially 
causing major disruptions in maritime travel every time these 
tankers enter the Sound to deliver international shipments of 
liquefied natural gas two to three times a week.
    We have an obligation to address grave concerns about 
security, safety, and the strains this project would put on the 
Coast Guard. And I do not believe the successful case has been 
made which addresses those concerns. In fact, responsibility 
for enforcing these secure tanker zones would fall to a Coast 
Guard that is already stretched thin.
    Instead of managing our fisheries, conducting lifesaving 
operations, and monitoring port security, it will be diverting 
resources to these new LNG tankers which itself would pose a 
new security risk.
    I'm also concerned about its potential impact on our first 
responders. To be sure, the Broadwater facility is not 
technically in Connecticut waters so I have said and it would 
be the Coast Guard's responsibility to respond to problems at 
the site, but the truth is, that Connecticut's first responders 
will, of course, respond to any emergency in the Sound to offer 
any assistance possible.
    Tankers entering and leaving the Sound will be in 
Connecticut waters from time to time and should an emergency 
arise, our emergency personnel will respond. Yet, few 
departments, if any, have the resources or personnel to handle 
this kind of emergency.
    Between fiscal years 2005 and 2006, Connecticut's homeland 
security first responders' State grants were cut by 28 percent 
or four point three million dollars. They have yet not fully 
recovered. By putting increased pressure on our first 
responders, Broadwater would not help.
    And as my colleague, Mr. Bishop, has pointed out, the 
situation we have with the budgets today and the unlikelihood 
of these budgets and these grant programs increasing. Looking 
ahead, we need to ask the hard questions about this facility's 
full impact on our regional and our national security. We are 
already forcing the Coast Guard and our local first responders 
to do more plus they are already dealing with the Groton 
Submarine Base, Millstone Nuclear, and international shipping 
traffic on a daily basis.
    We all understand the need for greater infrastructure and 
additional energy resources. On a national level, they play an 
integral role in our economic, environment, and foreign policy. 
On the local level they have direct impact on the cost of doing 
business and our quality of life. These are important 
questions; however, I do not believe this Broadwater facility 
provides the right answer.
    Finally, finally, finally, fishermen have worked these 
waters through generations. Thousands of residents and visitors 
spend their free time enjoying the quiet beauty of its water 
and its landscape every year. We know what it means to our 
community on so many levels because it has always been at the 
very heart of this region's heritage.
    We have a responsibility to maintain that heritage, to step 
up as responsible stewards of our natural resources, keep our 
Coast Guard strong, support our first responders, and protect 
our community. Thank you.
    Mr. Bishop. Thank you very much. Before we proceed with our 
first panel, let me do a couple of housekeeping details. First 
let me ask that everyone please turn off their cell phones or 
put them on silent or vibrate. And the second is that, much as 
I appreciate the applause, and Congresswoman DeLauro's very 
kind comments about me, I would ask that we have no outbursts 
of any kind, either positive or negative.
    Let's proceed to our testimony. Panel number one is 
comprised of four local elected officials. We have the 
Honorable Steve Levy, the County Executive of Suffolk County; 
the Honorable Brian Foley, Supervisor of the Town of 
Brookhaven; and our host, the Honorable Bill McGintee, 
Supervisor of the Town of East Hampton. We have the Honorable 
Kevin McCarrick, Councilman of the Town of Brookhaven and also 
our host.
    Your full statements will be submitted for the record. I 
would ask that you limit your testimony, your verbal testimony 
now, to five minutes each and let us begin with County 
Executive Levy. Mr. Levy.

  TESTIMONY OF STEVE LEVY, COUNTY EXECUTIVE, SUFFOLK COUNTY; 
  BRIAN FOLEY, SUPERVISOR, TOWN OF BROOKHAVEN; BILL McGINTEE, 
    SUPERVISOR, TOWN OF EAST HAMPTON; AND KEVIN McCARRICK, 
                 COUNCILMAN, TOWN OF BROOKHAVEN

    Mr. Levy. Thank you. It's truly an honor to be with you 
all. Welcome to our friends from outside of the Long Island 
area, Congresswoman DeLauro, counsel, and others from as far as 
Washington, D.C. I say first of all, Tim, the people on this 
panel are not--it's not a very common thing for us to have our 
back to the audience.
    It's a lot more comfortable sitting there looking out. This 
way if there's any projectiles coming our way, we can duck. So 
I'm going to ask you to hang in with us.
    For those who aren't--by the way, we do have some written 
testimony we'll hand in. I would rather speak more off text 
especially to our friends from outside the Long Island area, 
and for the record so those from Washington reading this would 
get an understanding of what this town is all about here on 
Long Island, here in Suffolk County.
    We are number one in many ways. We are number one in 
population. We are the largest Suburban County in the entire 
State of New York, 1.4 million residents. We're a suburban 
county, but in many ways still rural. In fact, we are still the 
number one county in the State of New York in terms of 
agriculture produced from a revenue standpoint.
    Our number one industry is tourism. None of the people 
would understand that or recognize that outside the area but 
they should be very aware of that fact and that's why we prize 
our environment to such a great degree.
    We're number one in aquaculture as well. Our Sound, our 
Peconic Bay, our Great South Bay have helped produce a 
tremendous industry for clammers, for the shellfishing 
industry. In fact, at one point 25 percent of the entire 
Nation's scallop harvesting came from Suffolk County. It's a $5 
billion regional economy that is fostered from the Long Island 
Sound and that cannot be underscored enough.
    We're also number one when it comes to preserving our open 
spaces. We are the envy of every county throughout the State 
and I would say the entire Nation. We preserve these open 
spaces because we believe in our environment.
    The history of Suffolk County cannot be written without 
also understanding how much and how vigorously we fought 
another Federal attempt to industrialize us in some essence, 
that was the Shoreham Nuclear Power Plant.
    Back in the late 60s a power plant was proposed here on the 
north shore of Suffolk County and this county rallied together 
its elected officials and its residents to a degree that no one 
ever felt--everyone said we would not be able to fight, we 
would not be able to win.
    We did fight in that particular instance and we did win. In 
this particular instance, we are opposed to this Broadwater 
concept. We're going to fight, and I think just like with 
Shoreham, we're going to win.
    Let me tell you why I think we should be opposed to 
Broadwater. Number one, we don't need it. There's great--
obviously, we are a large county and we're always growing and 
we can't say no to everything. I'm not a believer that you go 
out and you oppose every attempt for a windmill and every 
attempt for hydropower and every attempt for any kind of power 
plant that might be built in your particular community.
    In fact, over the last several years we've constructed over 
11 new power plants in Suffolk County and Long Island and 
that's a good thing. We need more power. But only 15 percent of 
the gas that will come into our Sound will inure to the benefit 
of Suffolk County.
    So here we are absorbing all the risk and getting very, 
very little benefit. Moreover, we have two--we have two 
pipelines that are in the pipeline, no pun intended, Iroquois 
and the Islander East. Once they are on line, we will have more 
than an ample supply of natural gas. Secondly, the security 
that would be involved and required to this is enormous. It 
will not only cost us a great deal of money, and by the way the 
proponents of Broadwater will say that they will pick up the 
tab. I will believe that when I see it.
    But nevertheless, it's going to cost us a great deal of 
money, and it's going to close the perimeter, not only around 
the Broadwater plant but for those 312 tankers that will come 
into the Sound on an everyday basis.
    I know I am out of time but I will go to the last reason 
that we should be opposing the Broadwater plant. It's going to 
have a tremendous impact on our ecology. It's going to suck in 
a tremendous amount of water and actually warm up the 
temperatures of our Long Island Sound and that could have a 
deleterious impact on the ecology.
    So basically to conclude, when it comes to Broadwater, we 
don't need it, we don't benefit by it, we can't secure it, and 
it will impact the temperature of our Sound. For that reason, 
Ladies and Gentlemen, we thank you for having this hearing and 
we thank you for the opportunity to express our opposition as 
the people of Suffolk County, 1.4 million, who believe there is 
a better way.
    Mr. Bishop. Thank you very much.
    Please, no outbursts. Please, no applause, no booing, no 
cat calls, thank you.
    We will now proceed to Supervisor Foley. Supervisor Foley, 
you are recognized for five minutes.
    Mr. Foley. Thank you, Congressman Bishop and Congresswoman 
Rose DeLauro. We thank you for taking the trip across the 
Sound. Certainly many ways Connecticut and Long Island have 
many common interests and certainly this is one of the most 
important. We also realize that the purpose of today's 
testimony is to focus on safety and security issues which will 
be the substance of my remarks.
    I would like to thank the subcommittee for conducting a 
hearing at Brookhaven Town. For the record, my name is Brian 
Foley. I am the supervisor of the Town of Brookhaven. As 
supervisor and a member of the Town Board, I also represent 
close to half a million residents who live in our township. 
Today I wish to express the Town's grave concerns with the 
safety and security issues surrounding the liquefied natural 
gas tankers and the LNG barge that Broadwater proposes for the 
Long Island Sound.
    The north shore of our Town has miles of precious coastline 
and acres of embayments, including fish habitats and wetlands 
feeding into the Long Island Sound, which has been declared by 
Congress to be an Estuary of National Significance. The 
residents of the Town of Brookhaven are very proud of our rich 
maritime heritage.
    Our concerns with the Broadwater proposal were heightened 
by the forthright admission in the United States Coast Guard 
Long Island Sound Waterways Suitability Report which I quote in 
pertinent part.
    Quote: "The Coast Guard does not have the resources 
required to implement the measures which are necessary to 
manage effectively the potential risks of navigation safety and 
maritime security."
    The Coast Guard went on to note: "Local law enforcement 
agencies could potentially assist with some of the... Measures 
for managing potential risk. [We] Recognize that local 
governments do not have the necessary personnel, training, or 
equipment," end quote.
    Now the Town presumably is one of the local agencies the 
Coast Guard would rely upon to assist with managing risk. I 
must tell you quite forthrightly as well that the Town does not 
have those resources. Frankly, the Town should not be expected 
to provide security for an international corporate venture. 
Further, the Town of Brookhaven's taxpayers should not be 
expected to perform homeland security functions in the face of 
terrorist attacks. If the Coast Guard does not have the 
resources to protect us, the Broadwater project should be 
rejected for that reason alone.
    The Town's safety concerns were further heightened upon 
release of the recent GAO Report which highlighted additional 
safety issues which have yet to be studied by the Department of 
Energy. The GAO report also emphasized the disagreement among 
experts with the conclusions reached in the Sandia Report. The 
Sandia Report, as you know, is the basis for the safety 
conclusions in Broadwater's DEIS and the Coast Guard report.
    Of significant concern to the Town are the experts cited on 
the GAO report who disagreed with the Sandia Report's 
conclusion that the distance of one mile protected human beings 
from burns resulting from an LNG fire. A significant portion of 
those experts, fully 25 percent of the experts contacted by the 
GAO believed that this one mile assumption is way too small a 
distance and that burns might very well occur at a greater 
distance.
    At a minimum, this issue should be studied, particularly 
since the Race, as it's called, the entrance to the Long Island 
Sound and a prime area for fishermen and boaters from our Town, 
is only one and a half miles wide in some areas, way too close 
for comfort and something that we are very, very concerned 
about.
    Further, we understand the GAO is conducting further 
studies on the potential impact of fires on marine life and on 
the Coast Guard's ability to provide security. These studies 
likely will not be completed until after the scheduled issuance 
of the Broadwater FEIS, a situation this committee should 
address.
    Finally, the subcommittee should note that the Broadwater 
DEIS suggests two general areas which Broadwater is considering 
for its onshore support and launching facilities. One of those 
areas is Port Jefferson. Nowhere in the DEIS or the Coast Guard 
report are the safety and security issues related to such a 
support facility analyzed or even discussed.
    In short, safety issues raised by LNG tankers and 
facilities have not been studied sufficiently to consider 
placement of the LNG barge in an Estuary of National 
Significance such as the Long Island Sound. We suggest that 
Congress act to prevent further action by FERC on the 
Broadwater application until the GAO studies are completed and 
until an analysis of the security and impacts of the potential 
Port Jefferson launching facility is concluded.
    Finally, we must emphasize that in no way should FERC or 
Broadwater expect local government to bear the burden of 
Broadwater's security. Thank you very much.
    Mr. Bishop. Mr. Foley, thank you very much.
    We will now proceed to Councilman McCarrick. Councilman 
McCarrick, you are recognized for five minutes.
    Mr. McCarrick. Thank you, Congressman Bishop and thank you, 
Congresswoman DeLauro for coming across the Long Island Sound 
that doesn't separate us, it joins us together as you know. And 
there couldn't be a more important issue. My name is Kevin 
McCarrick representing Council District 2 in Brookhaven. My 
district encompasses parts of at Terryville, Ridge and Coram as 
well as the shoreline hamlets of Miller Place, Mount Sinai, 
Rocky Point, Sound Beach and Shoreham. As the elected local 
representative for the hamlet of Wading River, I'm greatly 
concerned regarding the potential effects of locating an LNG 
barge facility off Shoreham/Wading River in Long Island Sound.
    Anyone who doubts the sincere and overwhelming magnitude of 
public concern need not take my office or any other elected 
official's word. They need not to consult leading environmental 
activists or science experts regarding the Broadwater proposal. 
Indeed, all anyone needs to do is recall the 1,000 plus 
residents of our northeastern communities who attended the FERC 
public hearing of January 11, 2007, some parking as far as a 
half a mile away just to attend. The FERC hearing I attended in 
Rancor was just as heavily attended and overwhelmingly in 
opposition to the proposal.
    We as a community from all walks of life and all 
occupations voice in near unanimous harmony a reverberant "no" 
to the Broadwater proposal.
    Among the many concerns was the real possibility of a 
terrorist incident at the site. Sadly, we live during a period 
in history where the very possibility of such an action is ever 
present. We live with the very real possibility of an 
attractive target drawing and increasing the likelihood of a 
terrorist action based on the very nature of the activity. A 
large floating LNG bomb is undeniably such an entity that by 
its very nature increases the likelihood of an attack. The 
World Trade Center stood as a beacon of our Nation's economic 
might, its size attracted two attacks over the course of eight 
years, each causing harm culminating with the unthinkable 
catastrophic incident forever burned into the American psyche.
    We run the same type of risk by the very nature of this LNG 
proposal regardless of what anyone states. The reality of the 
terrorist mind needs to be confronted boldly. I have been 
active in considering these sets of facts. Official 
governmental publications support these concerns and we need to 
seriously consider them. My constituents and I would be 
impacted directly by the LNG barge, the tankers, and other 
related activities.
    We are deeply concerned with the statements in the Coast 
Guard Report released on September 21 of 2006 which candidly 
admits that the U.S. Coast Guard does not have the resources to 
provide security for the LNG barge, the tankers, or provide 
rescue service for the workers or tankers and barge. The local 
volunteer fire departments are not equipped to respond to the 
magnitude of possible incidents such as LNG fires or 
explosions.
    I attended the hearing conducted by the Suffolk County 
Legislature's Committee on Energy and Environment last month 
where GAO staff answered questions from the committee and the 
public regarding its recent report on the public safety 
consequences of a terrorist attack on LNG tankers.
    The statements at the hearing underscored the fact that the 
potentially disastrous impact of an LNG accident, explosion, 
and fire have yet to be studied sufficiently. Most troubling is 
the fact that there is not scientific unanimity on the question 
of the distance one must be from an LNG fire in order to be 
protected from heat burn. Indeed, the Sandia Report--which is 
the foundation for the DEIS--is being called into question as 
to the one mile estimate of the distance one must be in order 
to be protected from burns from an LNG fire. The range, 
according to some experts weighing into the GAO, may be 
further.
    Further, we learned for the first time at the Suffolk 
County Legislative hearing that the GAO is conducting 
additional studies as to the safety of the LNG facilities. 
Evidence of this is outlined in the GAO report of February of 
2007 entitled Maritime Security Public Safety Consequences of a 
Terrorist Attack on a Tanker Carrying Liquefied Natural Gas.
    DOE recently funded a new study to be completed by the 
Sandia National Laboratories of 2008 that would conduct small 
and large scale LNG fire experiments to refine and validate 
existing models such as the one used by the Sandia National 
Laboratories in a 2004 study to calculate the heat hazards of a 
LNG fire.
    Locally, our hospitals are under siege, grappling with 
questions of funding. There are very real possibilities that 
some maybe forced to curtail services or to close. If this 
becomes reality, will we be able the service anticipated 
victims?
    Proponents of the Broadwater proposal state we must have 
this source of LNG to serve the growing energy appetite for the 
region and this additional source in a competitive market will 
lower the price. If every home and business here on Long Island 
were to replace five incandescent light bulbs with compact 
fluorescent bulbs, we would save millions of dollars, clean our 
environment, and eliminate the safety and security questions we 
are addressing here today. But additionally, we drastically 
reduce our need of this imported fossil fuel here.
    If we consume less energy, we become less of a target 
market to sell and then maybe we won't get proposals that 
require us to question our need to consider a project like 
this. We wouldn't need hearings like this. That's Broadwater's 
inconvenient truth. On behalf of the people of the Second 
District, I thank you for this opportunity to address you.
    Mr. Bishop. Mr. McCarrick, thank you.
    I now recognize Supervisor McGintee for five minutes.
    Mr. McGintee. Thank you, Congressman and thank you for 
having this forum and allowing this panel to speak. 
Congresswoman DeLauro, welcome to this side of the Sound. It's 
a pleasure to have you here. I'm kind of uncomfortable because 
where I come from, we prefer cat calls and noise from the 
audience. We're kind of used to that. I would like to read my 
statement and then I have some of my own comments to follow.
    For the record, I am the Supervisor of East Hampton Town. 
The plan for a Broadwater liquefied natural gas terminal on the 
Long Island Sound will require transit through Montauk Channel 
and Point Judith Channel of large LNG carriers to supply the 
terminal. Broadwater expects six trips by these LNG carriers 
per week. One of the safety measures that the Coast Guard will 
impose on the carriers and barges is a security zone that will 
require other vessels to cease their activities and leave the 
area while the LNG carries are passing thorough local waters.
    The consequences of a catastrophic incident with one of 
these carriers is so serious that the Coast Guard requires a 
moving safety zone around them 6,000 yards long and 1,600 yards 
wide. That is 60 football fields long and 16 football fields 
wide moving with ships at 10 knots. Just off point for a 
moment, it takes 15 minutes for that zone to move from the end 
to the beginning which would be inconveniencing a lot of 
fishermen and a lot of recreational boaters in the eastern end 
of Long Island.
    Although the LNG carriers and the barge are not expected to 
enter East Hampton borders, except for the occasions on which 
they may travel off course, the project will cause a serious 
disruption to East Hampton commerce and our way of life.
    The Race, the most dangerous part of the route for the LNG 
carriers to navigate, is one of the most heavily used fishing 
spots on the East End. Vessels, particularly vessels from East 
Hampton, utilize that area almost every day weather permitting. 
East Hampton Town is home to over 2,800 boats of all types. All 
of these vessels have a potential to be impacted by this 
proposal.
    I will point out in the Coast Guard Report it says East 
Hampton's commercial fleet consists, I believe, of eight to 10 
boats and that they scallop and that is so far from correct. 
That should be changed. For example, fishing vessels make up a 
large component of the vessels that use the Race and include 
commercial fishing vessels such as lobster boats and trawlers 
as well as recreational and sports fishing vessels.
    It is estimated that the value of fish land in East Hampton 
is in the 10s of millions of dollars. The path of these fishing 
vessels in many instances intersects with the parallel of the 
LNG carrier routes. These fishing vessels create a significant 
security problem to the LNG carrier routes.
    Fishing vessels are not the only vessels to be affected by 
the LNG routes and safety zones. These areas are also 
intersected, for example, by private ferry vessels and 
recreational boaters. Commercial boaters are likely to become 
aware of the time periods during which they my no longer 
traverse certain waters, although it should be anticipated that 
certain individuals will refuse to recognize such limitations 
on their livelihoods, if anybody is aware of the independence 
of the fishermen in Montauk and in East Hampton, they will 
understand that they will not take lightly being locked out 
from their fishing grounds for any period of time. Recreational 
boaters may not be aware of such limitations and accidentally 
pass into forbidden zones.
    In this report the Coast Guard specifically states it 
currently does not have the resources required to implement the 
measures that have been identified as being necessary to manage 
the potential risk through navigation, safety, and maritime 
security associated with the Broadwater energy proposal.
    The Coast Guard states that it will rely upon local 
enforcement agencies such as East Hampton to assist in 
implementing some of the measures identified for managing 
potential risks in maritime security associated with the 
Broadwater energy project.
    Thus, much of the burden for providing security for the LNG 
carriers of the East End of Long Island would fall upon the 
Town of East Hampton and its Marine Patrol Unit.
    Specifically, the Broadwater proposal would require law 
enforcement from the Town of East Hampton to keep vessels out 
of the security zone, to warn, arrest, and impound fishing and 
other vessels obstructing the security zone, to aid and assist 
those with medical emergencies on the vessels, and to deal with 
law enforcement issues on the carriers. In addition, the Town 
would be required to assist with the clearing and assisting 
vessels and tankers in navigation mishaps in the shallow water 
off the Montauk Channel.
    Accidents or mishaps involving LNG carriers' dangerous 
cargo in East Hampton Montauk area also could require Town 
Harbor Masters to close Montauk Inlet and would require local 
police to close onshore facilities, tourist attractions, and 
the docks at the Montauk Harbor area. The Town's marine patrol 
fleet consists of two 18 foot marine patrol boats, one 32 foot 
work boat, and several 20 foot outboards. None of these boats 
is armed.
    The Town is not at all equipped to meet the security 
demands which would be required by Broadwater proposals. The 
Town taxpayers should not be forced to expand its military 
control unit for the benefit of a for-profit operation such as 
Broadwater.
    The Town of East Hampton is frequently called upon to 
assist the Coast Guard even with its current more limited 
duties. The Town has always worked cooperatively with the Coast 
Guard to assist it in security and safety measures in the 
waters off the East End. From the Town's experiences, however, 
it appears the Coast Guard lacks the financial capital and 
financial resources to maintain even the current level of need 
in Montauk. In order to protect the safety and security of its 
citizens and visitors, the Town would need to be assured that 
the LNG carriers are safe, the safety zones are secure, and any 
impacts to its vital fishing industry and recreational boating 
are minimized.
    The Town of East Hampton should not be the entity of 
footing the bill to ensure the safety and security concerns.
    Mr. Bishop. Thank you, Mr. McGintee.
    We're out of time. We're going to now to proceed to 
questions. I thank all of you for your testimony. I'm going to 
start and, Rosa, I will recognize myself for five minutes.
    I just really have two questions. I would like to put each 
question to each member of the panel and the first is for all 
of you: To what extent has your office been involved or had any 
say at all in the siting process for the Broadwater facility? 
Mr. Levy, I'll start with you.
    Mr. Levy. None.
    Mr. Bishop. Mr. Foley.
    Mr. Foley. A verified none, sir.
    Mr. Bishop. Mr. McCarrick.
    Mr. McCarrick. Same.
    Mr. Bishop. Mr. McGintee.
    Mr. McGintee. I would like to be able to answer 
differently, but none.
    Mr. Bishop. Thank you.
    The second question, the Coast Guard Waterways Suitability 
Report suggests that there will be a mix of law enforcement 
that would be involved. There has been some suggestion from 
Broadwater that there will be private law enforcement and 
security provided. And so my question to each of you is: What 
is your reaction to the prospects of private security 
patrolling the waters off of Suffolk County that is not under 
the jurisdiction of either the local authorities or the Coast 
Guard.
    Mr. McGintee, as a law enforcement officer, I'll start with 
you.
    Mr. McGintee. I have an enormous problem with it. When you 
look at this document, and I did spend 25 years in law 
enforcement, when you plan for security, you plan for your 
operation. You don't plan for reliance upon other agencies for 
an ongoing security program. It is clear that the Coast Guard 
indicates that they can't handle this.
    I want to go on the record. It has nothing to do with the 
Coast Guard's abilities. We have worked closely with them. They 
are an extremely well trained and talented agency. The problem 
is is that they don't have the staffing currently. And my 
experience--now I don't want anybody that works for the Federal 
Government to take offense at this--but I doubt very much the 
funding is going to be available for the Coast Guard to handle 
the security in terms of increased training, increased 
equipment, and increased staff.
    And currently with the Broadwater prospectus, they're going 
to provide 25 percent, allegedly, needs to Long Island and the 
greater metropolitan area. To me, that leaves 75 percent gap in 
the energy needs. And I believe once you open the door, there 
will be many, many people knocking on that door to fill the 75 
percent gap.
    If the Coast Guard can't handle the job with a business 
that's supplying 25 percent of the need, I can't imagine who is 
going to handle security if this expands beyond Broadwater.
    Mr. Bishop. Thank you.
    Mr. Levy.
    Mr. Levy. Thank you. The Coast Guard Report itself said 
quote, "Currently the agencies that could potentially provide 
assistance do not have the necessary personnel, training, or 
equipment." That speaks volumes.
    Furthermore, if there were this scenario developing whereby 
the entity itself, Broadwater, was going to be hiring security 
to provide security in our Long Island Sound, it's a little bit 
of the fox guarding the chicken coop. That security firm is 
going to be answerable only to the entity that pays it and that 
would be Broadwater itself.
    It's so absurd to think that we would ever have our Suffolk 
County fire, rescue, and emergency services units farmed out. 
New York City anti-terrorist squad would never be farmed out. 
We don't want security in our Long Island Sound being farmed 
out.
    Mr. Bishop. Mr. Foley.
    Mr. Foley. Certainly the public safety issues confronting 
the Town of Brookhaven, we have a full plate as it is now with 
public safety issues in our Township. The record should clearly 
reflect in the East End towns they have their own police 
department, in Brookhaven Towns and the towns west, it's the 
Suffolk County Police Department that has the key role in 
providing fire, rescue, emergency services, and police duties.
    So we would be of assistance to the police department in a 
number of matters and the same holds true with fire and rescue. 
However, in this particular case, even though we are a township 
of close to half a million people, to expect us to provide any 
services out into the Long Island Sound would really greatly 
impact not only our treasury but also the staffing that we have 
now, which for the most part particularly in the public safety 
area, one of things that we had inherited with this new 
administration, the Public Safety Department in our Township is 
basically comprised of part-timers.
    That is something that, given the size of our township is 
troubling enough on the land itself. Now, to take that same 
organization and apply it to an international venture that is 
on the Long Island Sound, I think makes it even much more 
problematic.
    Mr. Bishop. Thank you very much.
    Mr. McCarrick.
    Mr. McCarrick. To me are some of the comments of our 
supervisor, on top of that we have spending out one of our 
largest bond acts in the history of purchasing a required 
property in Brookhaven Town which would be part of what our 
security force will be maintaining.
    We have a part-time security force here, and, in fact, all 
of the maritime rescue services provided on the north shore by 
completely volunteer fire departments, which by the nature of 
being a volunteer fire department, only has a limited ability 
to help. So I see this as being quite a dilemma for Brookhaven 
Town and the residents being that we are somewhat short.
    Mr. Bishop. Thank you very much. My time has expired.
    Mr. Foley. There's one additional comment I can give with 
the permission of the chair and to underscore what Councilman 
McCarrick had mentioned earlier, showing how local, State, and 
Federal issues have really come into play here. The State right 
now is entertaining ideas of reducing support for local 
community hospitals.
    So at a time when we're having an increase of population in 
our Township, an increase in population in our county, at the 
same time there are those decision makers at the State level 
through the Berger Commission Report, looking to reduce the 
amount of services that the different hospitals can provide.
    Some of those hospitals are on the North Shore of 
Brookhaven Town. You have a holistic decision making process 
here. It is very problematic to try to place this LNG plant in 
this particular location for the reasons that they had outlined 
but also for the additional reasons that when it comes to local 
community hospitals, which is where, God forbid, if any 
accident would occur, is where those foreign forces would go 
to.
    We're looking at the spectre of having reduced services to 
some of those community hospitals that would serve the North 
Shore of Long Island. So, it's very problematic for both those 
reasons.
    Mr. Bishop. Thank you very much.
    I now recognize Congresswoman DeLauro for five minutes.
    Ms. DeLauro.  Thank you, Mr. Chairman and thank all of you 
for your testimony. It's very enlightening. Let me just pursue 
a couple of pieces of the security issues just for a second and 
then I'll move to a couple of other parts.
    Has any Federal agency explained to you how they will 
ensure that the security resources are in place before the 
facility is approved for construction?
    Let's go down the line.
    Mr. Levy. I would say to the contrary, they have admitted 
that right now they don't have the ability to do so.
    Mr. Foley. To the Town of Brookhaven, no, they haven't.
    Mr. McCarrick. Absolutely not.
    Mr. McGintee. They have not contacted the Town of East 
Hampton regarding that matter.
    Ms. DeLauro.  Do any of your local law enforcement agencies 
currently provide on water patrol services now?
    Mr. McGintee. We do. We have a Marine division that patrols 
the inner harbors and outside.
    Mr. Foley. We have some, through the aviation 
transportation department, some personnel who patrol some of 
our local waterways through the Port Jeff Harbors and the like. 
Again, in a very limited fashion.
    Ms. DeLauro.  Very limited, right.
    Mr. McCarrick. Actually, in Brookhaven Town, they are not 
prepared for response to emergencies where there are situations 
where people are injured. That falls onto the Suffolk County 
Police and local volunteer fire departments.
    Mr. Levy. Our Suffolk County Police Department does have a 
marine bureau but it has never contemplated anything of this 
matter.
    Ms. DeLauro.  Let me just quickly tick off the budget that 
was proposed to the Congress in terms of this area that you're 
talking and the level of expense that you would have to bear 
and don't know what those numbers are yet.
    Let me run those quickly and then I have a couple of other 
quick questions. State and local grants drastically cut 63 
percent from 2.7 billion to 1.9 billion. State homeland 
security grants cut $338 million. A decrease of $112 million 
for the law enforcement terrorism prevention. The urban area 
security initiative, the UASI, cut $170 million. Firefighters 
assistance grants cut by $362 million.
    I can tell you about the State of Connecticut. We have the 
law enforcement terrorist prevention program in the '08 budget 
was eliminated, eliminated in the administration's budget. 
Overall the 2003-2006 where we had $81 million dedicated to 
these areas, homeland security grants slashed 52 percent.
    The list goes on and on and on about the cuts in dealing 
with local law enforcement and their ability to be able to 
handle any kind of homeland security threats. Albeit, there has 
been money for border security, but no money in terms of being 
able to defend homeland security.
    Let me just ask these couple of questions to you: What 
kinds of support would be helpful to communities, I'm going to 
say Connecticut, but much like your own, in terms of assisting 
those who would negatively be impacted by the LNG terminal and 
a weekly tanker traffic? Let me give you an idea.
    Should it be mandatory for Broadwater to establish and 
maintain an environmental benefit fund, a commercial 
fisherman's fund, a community benefits fund, and a safety and 
security fund and make payments in lieu of taxes, and I'm going 
to talk about Connecticut towns?
    I would ask you all if you would briefly give me your sense 
of that kind of an effort and about the tax issue.
    Mr. Levy. Well, ironically, if a company trying to put a 
big coal plant on the mainland wanted to do so, it would have 
to go through permit processes, et cetera, pay taxes, do the 
whole bit. By simply going a few miles offshore, all of the 
sudden this entity is saying we don't have to play by those 
rules, we don't have to pay taxes. Now they're saying they'll 
put money into the local area, we don't know much or whether 
that would ever materialize.
    So certainly that would help. But that's not what we're 
looking for. We're looking to preserve the integrity of the 
Sound. What can be done to really put the nail into the coffin 
of Broadwater? Finally, one of the things presently holding 
back our flow of natural gas through the Iroquois pipeline and 
Islander East are some lawsuits generated by the Attorney 
General in Connecticut.
    Any help that your good auspices, Congressman DeLauro, 
could have in placing some pressure on the Attorney General to 
ease up to allow this flow of this natural gas to come from New 
England and upland down to Long Island, would be of very great 
help to our economy would obviate the need for Broadwater all 
together.
    Mr. Foley. Just to answer the question very briefly 
regarding funds as a potential way to mitigate, the way we look 
at it is that once you lose the commercial fishing grounds and 
once you lose those recreational grounds, particularly the 
commercial fishing grounds, you're losing a way of life that's 
been applied in these waterways for generations; 100, 200 
years.
    So in some respect, it's not just a rhetorical point, it 
goes to the heart of the matter that no amount of funding could 
be a suitable substitute for a loss of a way of life that's 
been part of our shoreline as well as the shoreline of 
Connecticut for centuries and for generations.
    Mr. McGintee. I actually have a proposal that could save 
Broadwater a lot of money; if they just don't do it, they do 
have to worry about funding anything. I think if this project 
were to move forward, then it would be essential that a large 
sum of money be put into a environmental protection fund for 
the project.
    To me it doesn't matter how much money they put in towards 
security, it can't be done. I do not have the resources. I 
cannot expand my marine divisions to the point where they are 
out there at night, they are out there during the day securing 
these vessels. One of the things that is missing in this report 
that I have concerns about, and again we're here to testify 
about security, the devil is in the detail.
    No one explains to me what the Coast Guard would do if a 
fishing vessel challenged the zone. No one has explained to me 
what would happen to a recreational boater that decided to cut 
behind the two mile area. Are these ships going to be armed? 
Are there shots across the bow?
    And what happens to the security breakdown if the Coast 
Guard vessels have to leave and secure that individual and then 
they breach their own security zone around the tanker? None of 
these questions have been answered. So to me, no amount of 
money on a security end is going to resolve these issues.
    Ms. DeLauro.  Mr. Chairman, if I might for a second because 
I believe I owe Mr. Levy a comment about Islander East because 
I'm nothing but up front about where we are and where we are in 
Connecticut. I'm obviously opposed to Broadwater and in the 
case of Broadwater, we're talking about 22 percent of the gas 
will serve the State of Connecticut. And that maybe as much or 
that maybe less in terms of Islander East.
    So, for the record, I am opposed to Islander East and have 
been strong in my community about that. I understand your 
concerns about it but I would be less than honest if I just let 
that go and let that slide here. I do believe there are other 
ways in which we can deal with that issue but I don't view that 
one as one of them and though we do agree in opposition on 
Broadwater. Thank you very much.
    Mr. Bishop. Thank you very much, Congresswoman. I'm going 
to exercise the prerogative of the chair and I don't get to say 
that all that often, and ask one additional question of 
Supervisor McGintee. You've made clear the importance of both 
commercial fishing and recreational boating to the economy, not 
just of East Hampton but for all of the eastern half of Long 
Island if not more.
    In your opinion, what will be the impact to those two 
sectors of our economy, recreational boating and commercial 
fishing, caused by the increase of traffic of LNG vessels 
bordering our coast?
    Mr. McGintee. I think it will have a profound impact on the 
commercial fishing industry and the recreational fishing 
industry. I did bring a chart here which had the ex-captain of 
the Boatman's Association and we do have a commercial fisherman 
on our board who is actually a member of the county commercial 
fisheries commission and they've indicated that this would be a 
great financial loss, particularly in the areas of the Race and 
the lobster industry and funds to take care of the lobsterman 
who may have lost pots or cannot get out there at the 
appropriate tides.
    It doesn't do any good--it does good for the lobsterman--
but for lobsters that don't make it to market reflect an 
increase in price to everybody and that includes the entire 
fishing industry.
    On the recreational end of it, I think the impact is going 
to be more on a tourism and the people that come to spend money 
in my town and the Town of Southampton, if they are constantly 
being cut off or they have concerns about either being arrested 
or detained if they happen to make a mistake of crossing over 
one of these zones, quite often they're not even going to be 
aware of what's going on, I think it's going to have a profound 
impact on the boating community as well as the fishing 
community.
    Mr. Bishop. Thank you very much. I will now excuse the 
first panel with our thanks. Thank you very much.
    The subcommittee will take a brief recess and will 
reconvene in about five minutes. Thank you very much.
    [Recess.]
    Mr. Bishop. This subcommittee will now reconvene. We will 
now move to the panel number two. For panel number two, we are 
joined by Captain Mark O'Malley, who is the Chief of the Office 
of Ports and Facilities Activities for the United States Coast 
Guard; Captain Peter Boynton, who is the Captain of the Port 
for Long Island Sound, United States Coast Guard; Mr. Mark 
Robinson, who is the director of the Office of Energy Projects 
for the Federal Energy Regulatory Commission; and Mr. Mark 
Gaffigan, who is the Acting Director of Natural Resources and 
Environment for the Government Accountability Office.
    As was the case with the first panel, your written 
statements will be submitted for the record in their entirety. 
We would ask at this time that you limit your verbal testimony 
to five minutes and we will start with Captain O'Malley. 
Captain O'Malley, you are recognized for five minutes.

    TESTIMONY OF MARK O'MALLEY, CHIEF, OFFICE OF PORTS AND 
FACILITIES ACTIVITIES, UNITED STATES COAST GUARD; CAPTAIN PETER 
 BOYNTON, CAPTAIN OF THE PORT_LONG ISLAND SOUND, UNITED STATES 
    COAST GUARD; MARK ROBINSON, DIRECTOR, OFFICE OF ENERGY 
PROJECTS, FEDERAL ENERGY REGULATORY COMMISSION; MARK GAFFIGAN, 
     ACTING DIRECTOR OF NATURAL RESOURCES AND ENVIRONMENT, 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Captain O'Malley. Thank you, Mr. Bishop. Good morning, Ms. 
DeLauro. I am Captain Mark O'Malley Chief, Office of Port and 
Facility Activities at U.S. Coast Guard Headquarters. It is my 
pleasure to appear before you today to discuss the Coast 
Guard's role in providing for the safety and security of 
Liquefied Natural Gas vessels and facilities.
    LNG vessels have had an enviable safety record over the 
last 45 years. Since the inception of LNG shipping in 1959, 
there have been over 40,000 LNG shipments around the world 
without a serious accident at sea or in port. LNG vessels and 
those transporting liquefied hazardous gasses are built and 
inspected to the highest engineering and safety standards 
established by the International Code of Construction and 
Equipment of Ships Carrying Liquefied Gasses in Bulk.
    Today there are over 200 vessels operating worldwide and 
they are expertly manned by some of the most highly trained 
officers and merchant seamen. In response to the terrorist 
attacks of 2001, the Maritime Transportation Security Act of 
2002 was enacted and required robust maritime security regime 
for both vessels and facilities. These security requirements 
closely paralleled the Internal Ship and Port Facility Security 
Code.
    Under ISPS, vessels must develop and implement a threat 
scalable security plan that, among other things, establishes 
access control measures, security measures for cargo handling 
and delivery of ships stores, surveillance and monitoring, 
security communications, and incident procedures and training 
and drill requirements.
    Additionally, like all deep draft vessels in the United 
States, LNG vessel operators must provide the Coast Guard with 
a 96-hour advance notice of arrival and including information 
on the vessel's last ports of call, true identities, and cargo 
information. This information is vetted to detect any concerns 
or anomalies.
    The Coast Guard conducts pre-entry security warnings of LNG 
vessels to ensure it is under the control of proper authorities 
during a seaport transit. In order to protect a vessel carrying 
LNG and other especially hazardous cargos from external attack, 
these vessels are escorted by Coast Guard vessels throughout 
key port areas.
    These efforts are often augmented by other Government 
agencies and the facilities operators' private security forces 
who conduct additional activities such as waterway patrols and 
surveillance.
    The combined effort of Federal, State, local, and private 
assets contribute to the overall local LNG port risk mitigation 
plan. The Federal Energy Regulatory Commission has siting 
authority for shoreside LNG terminals. The Coast Guard is a 
cooperating agency for the preparation of first environmental 
impact statements associated with siting of the facility.
    The local captain of the port must conduct an assessment 
regarding the suitability of the waterway for the proposed 
vessel's transits ensuring that full consideration is given to 
the safety and security of the port, the facility and the 
vessels transporting the LNG.
    The process involves an area maritime security committee 
and a harbor safety committee. It includes identification of 
the mitigation measures to responsibly manage the safety and 
security risks that are identified in the suitability 
assessment.
    The assessment also includes an analysis of an optimum mix 
of Federal, State, and local resources in addition to private 
security forces needed in implementing necessary risk 
mitigation measures. The Coast Guard continues to analyze 
resource application needed in light of the potential growth of 
the LNG industry in the U.S.
    This new work maybe accommodated through reallocation of 
existing resources, expanding the use of other government 
agencies to conduct security operations, or the use of 
political resources. All of these options are under 
consideration. It is important to note that there are other 
hazardous cargos the Coast Guard regulates and ensures the 
safety and security.
    Our prevention and protection strategies must be aimed at 
ensuring the highest risk situations receive the highest level 
of protection. GAO recently concluded two reports; one examined 
the current security practices for vessels carrying LNG and 
other petroleum commodities. The Coast Guard had extensive 
interaction with the GAO in the drafting of this report.
    The second report is a comprehensive review of existing LNG 
consequence studies. The Department of Energy was the principle 
Federal agency interacting with GAO. The Coast Guard had 
minimal input into this study. However, we do agree that 
additional studies are needed to further examine the potential 
consequences of an LNG contingency. Thank you for giving me 
this opportunity to discuss the Coast Guard's role in LNG 
security. I'll be happy to answer any questions that you may 
have.
    Mr. Bishop. Captain O'Malley, thank you for your testimony.
    Captain Boynton, a pleasure to see you again. You are now 
recognized for five minutes.
    Captain Boynton. Good morning, Mr. Chairman, Congresswoman 
DeLauro. My name is Captain Peter Boynton. I'm the Commander of 
Coast Guard Sector Long Island Sound. I'm responsible for all 
Coast Guard operations in Connecticut, on Long Island, in Long 
Island Sound, and 200 miles out to sea, including search and 
rescue, port security, port safety, and environmental 
protection.
    I supervise 16 field units in Connecticut and on Long 
Island with 490 active duty and civilian men and women, 200 
reservists, and 1,800 volunteer Coast Guard auxiliaries. If I 
could just comment for a moment as your Captain of the Port, I 
want to say how much I've enjoyed working with both you, 
Congressman Bishop and Congresswoman DeLauro, and how much I 
appreciate leadership from both of you working Coast Guard 
issues during the last three years while I have served as your 
Captain of the Port. I am truly grateful for your leadership on 
Coast Guard issues.
    Beginning in the spring of 2005, Coast Guard Sector Long 
Island Sound has been evaluating the Broadwater LNG proposal 
for Long Island Sound. The Coast Guard role is not to approve 
or deny this project. That is the role of FERC as the lead 
Federal agency. The Coast Guard role has been to determine the 
suitability of the waterway with respect to just two issues; 
navigation safety and port security.
    When we began this process I gave my staff two rules. The 
first is that the Coast Guard would neither support nor oppose 
this project but instead would focus on doing an objective 
analysis of the risks. Second, that we would not as your Coast 
Guard do this process behind closed doors. Instead, that we 
would involve experts and users in our assessment of safety and 
security.
    That assessment took well over a year and involved over 50 
experts and users from both Long Island and Connecticut helping 
us on two committees; one for safety, the other for security.
    The security committee examined 26 potential attack 
scenarios including sabotage, hijacking, stand off attacks, 
aerial attacks, surface attacks, subsurface attacks. The 
security committee included 20 participants outside of the 
Coast Guard and a partial list would include the U.S. Navy, the 
FBI, the Transportation Security Administration, Customs and 
Border Protection, the New York and Connecticut Offices of 
Homeland Security, the National Guard, the Nassau County 
Police, Suffolk County was represented on this committee by the 
Suffolk County Fire, Rescue, and Emergency Services personnel, 
Riverhead Police, New Haven Fire Department, Cross Sound and 
Port Jeff Ferry among others.
    The second committee, the safety committee, examined 25 
potential safety scenarios including collisions, groundings, 
and ollisions. The safety committee included 30 participants 
from outside the Coast Guard including Towing and Shipping 
Operators, Department of Environmental Protection, Boating 
Advisory Council, Lobster and Shellfish Association 
representatives, Riverhead Fire marshal, New York State Police, 
Key Span, U.S. Power Squadron, National Party Boat Owners' 
Association, harbor masters, and others.
    In other words, in following my rule number two when we 
examined safety and security, we include representatives 
ranging from the FBI to representatives of fishermen. With 
those two committees, we identified potential risks to safety 
and security.
    We then asked both of those committees to help us to go 
back over those lists of potential risks and help us evaluate 
whether or not those risks could be mitigated; for example, 
mitigated with things like security zones which the Coast Guard 
has in operation today even without Broadwater, not only at 
locations around the country but even here in Long Island Sound 
where we have security zones escorting armed Coast Guard boats 
that very successfully and safely escort U.S. Navy and nuclear 
submarines through areas where there are recreational boaters.
    In the process, I attended dozens and dozens of meetings, 
some of which I was the only government employee present. I 
received 2400 letters. I read each one of those letters. I 
reported this yearlong collaborative effort to the Waterways 
Suitability Report or WSR which was completed in September of 
2006.
    Before I released this to the public and FERC, I sent this 
report up the Coast Guard chain for their concurrence with my 
findings and my statement of necessary resources.
    Key findings include that Long Island Sound is a mixed used 
waterway. The impact of LNG tanker arrivals, that the off shore 
location nine miles from land is a significant advantage from 
safety and security in reducing potential consequences because 
of the distance from any population centers, that none of the 
hazard zones from the facility would reach land, and neither 
hazard zone one nor two would reach land from any point on the 
tanker route, and that hazard zone three could reach land at 
some locations.
    We concluded there were risks to safety and security and 
that those risks could be mitigated, at a cost. As a result of 
these findings, the preliminary conclusion of the WSR was that 
Long Island Sound could be suitable for the transport of LNG 
from the perspective of safety and security if, and these 
things are linked, suitable if the risks were to be mitigated, 
and mitigating those risks carry costs.
    Thank you for the opportunity to speak with you today.
    Mr. Bishop. Captain Boynton, thank you very much.
    Mr. Robinson, you are now recognized for five minutes.
    Mr. Robinson. Thank you. I am Mark Robinson. I am the 
Director of the Office of Energy Projects at FERC. We are 
responsible for the siting of natural gas pipelines, natural 
gas storage facilities, electric transmission lines, about 2500 
hydroelectric projects, their siting, their safety, their 
security.
    More significantly for this audience today, the 
authorization, the construction, and the operation of LNG 
terminals.
    I would like to touch upon three points today in our 
discussion: how our siting process incorporates safety and 
security measures; just briefly, tanker safety and more of that 
will be discussed by the Coast Guard; and then Broadwater.
    First, siting. The point that I need to make here is that 
siting is a cumulative process. We don't just site, it's one 
decision at a time. The first step is a pre-authorization 
process. That's what we're in right now with Broadwater. During 
the pre-authorization process, we have the initial engineering, 
we have the initial safety features that will be employed, we 
have mitigation measures that might be addressed.
    We do that in a very open and public forum. We have some of 
listings of this project and thousands of comments, all of 
which we look at and address.
    The pre-authorization process often culminates with the 
Commission deciding whether or not the project should be 
authorized. In the case they do decide it's in the public 
interest, the one criteria that they look at above all others 
is can it conclude that the project will operate safely, then 
they will authorize that project.
    But that's just the first step. After the authorization we 
go into a reconstruction mode of authorization and here one of 
the more significant aspects of that reconstruction period is 
something that was required of us by the Energy Policy Act of 
2005. We have to develop what's called an emergency response 
plan during that period; after authorization, before 
construction. By law we have to do this.
    To determine exactly what the specifics are and who will be 
doing what to ensure the safety and security of this facility, 
not only do we have a plan developed during that period but we 
also have a cost sharing mechanism to put into place, which 
identifies exactly who is going to pay for what.
    No construction can occur until that cost sharing plan is 
filed with the Commission and I have to authorize it, I have to 
approve it, and allow construction to begin. If it's not 
adequate, if the costs aren't identified as to how the safety 
zone will be ensured, one cannot construct.
    Let's assume we go through that process and we do, in fact, 
authorize construction of the project. The second phase is 
siting. Then we start a pre-operation process which includes 
the fabrication of materials, the assurance that everything is 
constructed exactly as proposed, or if it's modified in some 
way, it's at least as safe as originally proposed.
    And only after all of those criteria have been met, once 
again the authorization holder comes back to the Commission and 
demonstrates to us that they have constructed the project 
adequately and that they receive an authorization to operate. 
So safety is in every one of those phases, is in the primary 
interest of the Commission and the other agencies that we deal 
with throughout the entire process, and the public involved.
    On tanker safety, just real quickly I want to mention. The 
one aspect of this that I think we need to make sure everybody 
understands, is we've been operating LNG tankers around the 
world for almost 50 years now. There has never been a lost LNG 
cargo in that 50 years.
    You have an LNG tanker coming into Tokyo Harbor, one of the 
busier harbors, more populated harbors in the world every 23 
hours. They've been doing that for decades. LNG ships are 
constructed in a fashion and have demonstrated they can 
withstand rigorous activity and deliver LNG safely and they've 
done it for decades.
    Moving onto Broadwater in particular. We received that 
application in June of '06 but that was after 14 months of a 
pre-filing process. If you add it all together so far we have 
spent about 26 months now reviewing this project. There is no 
rush to judgement on the Broadwater project.
    There has been much identified and much learned about this 
project and some conclusions reached, all of which are now in 
the phase of a draft environmental impact statement being 
challenged and reexamined with new information coming in here.
    Ultimately, we will issue a final environmental impact 
statement that will address every single comment that we 
received on our analysis from critics and proponents alike. 
Believe me, we get comments about our analysis from both 
critics and proponents.
    Ultimately, we will answer those and put out an FEIS and 
only at that time will the Commission be in a posture to take 
action on Broadwater and determine whether or not they believe 
it's in the public interest.
    Ultimately, our objective with the commission is to ensure 
a contingency rising level of safety and security of these 
facilities so that LNG can continue to supply natural gasses to 
this country and move forward. Thank you very much.
    Mr. Bishop. Mr. Robinson, thank you.
    Mr. Gaffigan, you're now recognized for five minutes.
    Mr. Gaffigan. Thank you, Mr. Bishop, Ms. DeLauro. Good 
morning. I'm Mark Gaffigan, Acting Director of Energy Issues 
with GAO's Natural Resources and Environment Team. I'm pleased 
to be with you this morning discuss GAO's work on the potential 
public safety consequences of a terrorist attack on an LNG 
tanker.
    As you well know, the Nation's demand for energy is 
increasing. This includes increasing demand for natural gas. In 
general the U.S. has largely met its natural gas demand from 
domestic sources with about 15 percent of its supply imported 
by pipeline from Canada and only three percent imported from 
other countries via LNG tankers.
    However, this largely North American market is starting to 
turn more towards sources of natural gas from the rest of the 
world that must be liquefied and condensed to be carried by LNG 
tankers to the U.S. Thus, there is increasing interest in 
expanding the Nation's LNG import capacity with proposed new 
facilities like the Broadwater facility off of Long Island.
    The proposed new facilities along with increased awareness 
of terrorist attacks after 9/11 has drawn attention and raised 
questions about the potential of terrorist attacks on LNG 
tankers and the consequences. The Congress asked GAO, its 
independent investigative arm, to examine the safety 
consequences of LNG spills.
    Our recent report attempted to identify where there was 
consensus among experts and where questions still remained 
about LNG tanker risks. My message today, based on our work 
that examined multiple LNG studies and consulted a panel of 19 
experts emphasizes three points:
    One, the most likely public safety impact of LNG spill is 
the heat impact of a fire.
    Two, there are uncertainties associated with the heat 
impact of fires that could be clarified by further research.
    Finally, the U.S. Department of Energy has recently funded 
research to address large scale LNG fires that addresses some 
but not all of the research priorities identified by experts.
    There is broad consensus that the heat impact of fire is 
the greatest safety concern. While there are other potential 
hazards from LNG spills, they are considered to be much less 
likely to occur or affect public safety. Most notably, experts 
believe explosions are not likely to occur in the wake of an 
LNG spill unless LNG vapors are in confined spaces.
    The experts also reached a consensus that freeze burns and 
asphyxiation do not pose a hazard to the public. Uncertainty 
about the heat impact of an LNG fire was illustrated by 
different conclusions about the distance at which 30 seconds of 
exposure to heat can burn people.
    The distances ranged from about a third of a mile and a 
mile and a quarter in the studies that we examined. The 
uncertainty stems from numerous model assumptions that have to 
be made because there are no large scale LNG spills from actual 
events.
    Experts we consulted with recommended several research 
priorities to address these uncertainties which included large 
scale fire experiments, and the potential for the cascading 
failure of multiple tanks within an LNG tanker that could 
impact the fire size, duration, and hazard ranges.
    DOE has recently funded research to address large scale 
spill testing on water and large scale fire testing. However, 
other research areas such as the potential for cascading 
failure of multiple tanks within an LNG tanker are an not yet 
part of the funded research.
    However, DOE has agreed with our recommendations to 
consider research priorities identified by the experts in our 
report and is considering further research to clarify and 
better define potential public safety consequences of an LNG 
spill.
    As the Nation looks to expand its ability to import LNG, 
understanding the risks and resolving the uncertainties 
associated with LNG tankers will become increasingly important 
to regulators and the public so that informed decisions can be 
made about siting new terminals and protecting public safety as 
LNG tankers serve both existing and new terminals. This 
concludes my opening remarks. I have submitted a written 
statement for the record and I welcome any questions you might 
have. Thank you.
    Mr. Bishop. Thank you very much.
    I thank all of you for your testimony.
    Mr. Robinson, I'm going to start with you, if I may.
    Mr. Robinson, Broadwater has repeatedly made the point that 
construction of the facility bringing it on line will save an 
average of $300 per household. They cite that number in data 
that they submitted to the FERC as part of the so called 
resource report.
    Very quickly, does that number or any number having to do 
with potential economic impact to families on Long Island or 
Connecticut or the New York metropolitan area, does that have 
any role at all in the FERC siting issue?
    Mr. Robinson. No. The number that you're talking about has 
not been filed with FERC. There is information in resource 
report number five that Broadwater cites, the information they 
used to calculate that number. But there's been no filing with 
FERC that reports a $300 benefit and to my recollection we've 
never had that type of filing in any LNG case made with us. And 
quite frankly, it probably wouldn't have much effect if it was 
filed.
    Mr. Bishop. If it saved zero or if it saved $3,000 per 
family does it or does it not enter into your calculation.
    Mr. Robinson. It does not right now. I'll tell you, if it 
was filed, it would not have an effect on the Commission's 
decision making process on LNG terminals and we've looked at a 
number of variables since 2002 goes primarily, primarily first 
and foremost, to how we can conclude that the project would be 
safe or not, everything else is immaterial, including the need 
for gas.
    Mr. Bishop. Thank you very much. Let me go to Captain 
Boynton.
    Captain Boynton, pleasure to work with you. You and I have 
had a lot of opportunity to interact and I've always found you 
to be an absolutely first rate professional and I thank you for 
that.
    To waterways suitability report prepared by the Coast 
Guard, I believe you were the primary author of that, lists 
several additional resources that are quote, "necessary to 
implement the risk management measures required by the Coast 
Guard," closed quote. Our office queried the Coast Guard as to 
how much those resources would cost and here's the response we 
got have it was not from you, it was from someone else in the 
Coast Guard.
    Quote, "While the resources identified are indeed a 
potential solution, further review in the broader context 
across Coast Guard sectors districts and the Coast Guard's 
Atlantic area may well result in a different mix of personnel 
and platforms to meet this need. If a terminal is approved, the 
Coast Guard will weigh these responsibilities along with 
statutory responsibilities to our other mission areas and 
determine the best resource allegation to mitigate risk across 
all 11 of our mission areas."
    The Coast Guard goes onto say if a terminal is not yet 
approved, the Coast Guard has not requested new resources or 
begun the process to reallocate resources and it cannot provide 
a detailed estimate of future resources.
    Now, I have to say that that response gives me great pause 
because it suggests that the Coast Guard will only undertake 
the task of specifically estimating cost and specifically 
assessing the impact of those costs, whether they be dollar 
cost or reallocation of resource cost, only after the project 
has been approved. Am I reading this correctly?
    Captain Boynton. I think part of the answer I'm going to 
have to refer to my colleague from headquarters because as your 
Captain of the Port, I don't handle budget issues, those are 
done in Washington. I can comment on two aspects of what I 
think you're asking, if you like.
    Mr. Bishop. Please.
    Captain Boynton. The first is the need for resources, how 
did we come up with the number of resources that we put in the 
WSR? And essentially it was a three part assessment. First, 
what's the safety assessment, where are the risks, and what has 
to be done to mitigate it. And second, what are the security 
risks and what has to be done to mitigate them. And third, what 
is the Coast Guard policy in terms of how we mitigate them?
    We have policy documents. It's a classified document. I 
can't give you the details in this session. I think you're 
probably familiar with that. It's like a strategy document; 
here's how you go about protecting things.
    Now, if the safety assessment were to change, that could 
effect the number of resources, the same with the security 
assessment or that policy document changed. And as we learn 
more in post 9/11, it's very likely that documents like that 
would be updated, we'll get better at how we do things and we 
might even get more efficient at it.
    So, if those three variables change, the amount of 
resources change in terms of where we get the resources from. 
As your local sector commander, I can tell you that currently I 
don't have those resources available. It's conceivable they 
might be available in the future.
    Now, there's a second source and the second source is it 
could be resources available from else where in the Coast Guard 
and every day we surge resources from one place to another, 
sometimes temporarily like Katrina and other times permanently.
    Another source for resources could be our deployable units 
like our MSSTs. We deploy them to do things like escort ships. 
The last resource could be going through the president's budget 
process. For that I'll ask my colleague if you would like him 
to comment.
    Mr. Bishop. Captain O'Malley.
    Captain O'Malley. Thank you both.
    Captain Boynton, despite the fact that he is local and not 
headquarters, did an exceptional job giving a headquarters 
response. All of the things he said are right on the money, 
sir. The fact that they are not locked in for Broadwater is a 
simple fact that, as you are well aware, 40 applications being 
processed currently.
    We anticipate that somewhere between eight and 12 will be 
approved. So as you can imagine, if you were to set up a 
template of resources for all 40 applications, then it would 
create a tremendous resource base that we would have to work 
from. So we are holding off on the assigning resources until we 
have approved applications.
    The other aspect of this as Mr. Robinson mentioned is that 
before construction takes place, there has to be a cautionary 
plan and an emergency response plan put together and that will 
certainly factor into it.
    Mr. Bishop. Let me just make sure I understand. We're in 
the pre-application phase. Assuming that the application is 
approved, the Coast Guard, will then sharpen its pencil and 
will then look at the recommendations that Captain Boynton's 
report has made and will determine what fulfilling those 
recommendations will cost, correct?
    Captain O'Malley. Correct.
    Mr. Bishop. Let's assume that the Coast Guard comes up with 
a cost. That cost becomes part of the annual budget request to 
the Congress and the Congress says, you know what, we've got a 
lot of other serious problems here. We've got a $25 billion de-
border acquisition program that hasn't gone so well. We just 
took eight cutters off line. Our first priority is to fix those 
eight cutters, replace those, we can't fund needs. Does the 
FERC then not move to the construction phase, Mr. Robinson.
    Mr. Robinson. Yes, I'm sorry, I thought you were addressing 
that to the Captain. I think I got the majority of the 
question. The Commission, in working with the Coast Guard, is 
never going to allow tankers to come in, and I'm not sure this 
is my part or a project to be constructed or a project to 
operate unless we know the mitigation measures, the security 
measures are the same measures that we have required are back 
in place and operational.
    Generically, I would say that we would just not allow that 
to occur. The safety of this facility is paramount. I have 
stopped an operation of LNG terminals at this time when things 
are going wrong. I've stopped tankers from coming in when a 
barrel was not in place. We would do that.
    Mr. Bishop. Let me move to a related issue and this is for 
both Captain Boynton and Captain O'Malley. You make reference, 
Captain O'Malley, to the fact that there are 40 some 
applications pending, all of which will have some level of 
impact on the Coast Guard, whether it's additional resources or 
reallocation of existing resources.
    Would it make more sense from the Coast Guard's perspective 
if we had a national policy for the siting of terminals and 
that we identify the five or 10 or 15 most strategically 
located areas where these terminals would make the most sense, 
be operated at the most efficient level, and that we made in 
effect holistic decisions about what our future energy needs 
are as opposed to making decisions seriotically, if you look at 
Broadwater and then you look at one other and then look at 
another.
    I'll put that question first to Captain O'Malley have then 
to Mr. Robinson.
    Captain O'Malley. That is a point that we've had 
discussions about certainly. The Coast Guard is not in a 
position as Captain Boynton articulated early on to either 
oppose or support a facility. So we research and look at each 
of these objectively. Now, that question really is far better 
answered by FERC.
    Mr. Bishop. It may well be but from the Coast Guard's 
perspective, if you are going to be charged with protecting 
these facilities, just from the narrow perspective of the Coast 
Guard, would it make more sense if we had a national siting 
policy where we made decisions looking at energy needs across 
the country and looking at the Coast Guard's ability to support 
those needs.
    Captain O'Malley. The simple answer to that is yes, sir.
    Mr. Bishop. Thank you very much.
    Mr. Robinson.
    Mr. Robinson. Well--if I've answered the question--if you 
look at what's going on worldwide with LNG siting, you see 
different models in different places. The model that you're 
talking about, there is in fact a Poei (phonetic) Channel. If 
you look at a map of the coastline of China, the government has 
dictated about evenly spaced terminals going down the 
coastline.
    Here, to this site at least, the siting process at work, is 
that the market ultimately makes the decision which LNG 
terminal will be constructed because that will provide the most 
economic source of natural gas, with the caveat that the 
government makes sure that whatever facility is built can be 
ensured in terms of safety and security. That's the model we're 
working under. So far five LNG terminals in this country have 
been effectively sited.
    Mr. Bishop. Thank you Mr. Robinson, and Mr. Gaffigan--and 
Rosa thank you for indulging my----
    Ms. DeLauro.  That's okay.
    Mr. Bishop. Today we've talked about the maritime security 
report that you've just issued, I would like to ask a question 
that references an earlier report, January '05 GAO report that 
was entitled Coast Guard Station Readiness Improving but 
Resource Challenges and management concerns remain. I will 
quote from that report: "The Coast Guard does not have an 
adequate plan in place for addressing the main readiness needs 
for the Coast Guard's strategic plans for these stations has 
not been updated to reflect increased security responsibilities 
and the agency lacks specific planned actions and milestones.
    Moreover, the Coast Guard has yet to develop measurable 
goals that will allow the agency and others to track the 
stations' progress."
    That report as I said was January of '05. To your knowledge 
has the GAO undertaken a more recent report to address those 
issues.
    Mr. Gaffigan. We continue to work on Coast Guard issues and 
this resource challenge is something that continues with the 
Coast Guard. We recently testified on the Safe Port Act on the 
question of resources. The question of resources has been 
raised today. It's out there and I think it's a fair question 
to ask and I think it's a question, related to Broadwater, it's 
a question to resolve now.
    The Coast Guard is struggling to meet resources not only 
for Broadwater, not only for LNG facilities, but for all its 
responsibilities that have increased after 9/11.
    Mr. Bishop. Thank you very much. Congresswoman DeLauro.
    Ms. DeLauro.  Thank you very much, Mr. Chairman, and I, 
too, want to express my thanks to Captain Boynton for your 
great work as head of the Port. And it's been a pleasure 
working with you and i'm delighted that you're going to 
continue to be a Connecticut resident soon, wonderful.
    I think it's important if we're talking about--what are the 
areas that when we talk about what the security needs are, I 
think it's--let's tick those off lest people think that it's 
one or two items that would be easily dealt with and paid for. 
See if I have this right.
    The resources which represent significant increase in 
funding include 187 or 110 coastal control boat 41 foot. 10 
rescue boats or UTBs, that's the next generation of small 
boats. Security boarding teams consisting of one boarding 
officer, seven boarding team members. 10 to 12 boat crews 
consisting of 40 to 48 personnel. Two marine inspectors, crew 
facility inspectors, four logistic support personnel. Is that--
--
    Captain Boynton. Exactly correct.
    Ms. DeLauro.  I think for the record it's important to note 
that we're not talking about a person here, a boat there. This 
is a significant commitment of resources in order--no protect 
the communities, you know, to protect the carrier, et cetera. I 
don't understand. Let me just ask this of both Captain Boynton 
and Captain O'Malley.
    To what extent now do you depend on local communities to do 
the jobs that you--I'm just going to tick off a couple of 
questions--to what extent do you depend on them now? You also 
have a very serious issue that my colleague mentioned of the 
Coast Guard being behind schedule in the Deepwater plan to 
modernize the fleet which is going to take some resources.
    We've addressed the issue of--we're putting the cart before 
the horse here, friends. No one in my community buys a pig in a 
poke. I'm not suggesting that this is what this is, but if the 
costs are going--we're going to know about the cost after the 
fact and then we're going to figure out how we're going to the 
pay for after the fact, it's a little bit of problem for us to 
deal with. I know my city of New Haven would have significant 
problems with that.
    You tell me what it's going to cost we'll determine along 
with our counsel. If not the fact that we can't handle it.
    In fact, what level of experience do you have with them 
now? What is your broad mandate of dealing--what are the 
responsibilities you currently have in terms of commanding a 
port here and what resources does that take at the moment? Let 
me just start with those if you can answer that.
    Mr. Bishop. Thank you. Captain Boynton, if I could just 
make an announcement. Please, work with me here. Please let's 
not have outbursts of any type.
    Ms. DeLauro.  The last question is what else are you 
charged with protecting?
    Captain Boynton. Yes, ma'am. I got it. I think out of the 
four questions I can answer one, three, and four and then 
problems with Deepwater, I'm going to ask my colleague from 
headquarters to comment on.
    Captain O'Malley. Thank you.
    Captain Boynton. You're welcome.
    To what extent do we depend on State and local partners? 
Congresswoman, I've been in the Coast Guard from Maine to 
Puerto Rico. And the partnerships we have on Long Island and 
Connecticut are among the best I have seen anywhere. Suffolk 
County, Nassau County have the wherewithal of States and it's 
rare that we have a case for search and rescue, for port 
security, for marine environmental protection when Suffolk and 
Nassau are not on the scene with us. They are fantastic 
partners.
    In Connecticut, the New Haven Fire Department, Police 
Department, Bridgeport Marine Control, Waterford Marine Patrol 
State DEP--let me just give one example. Last summer----
    Ms. DeLauro.  I'm going to just interrupt you for a second 
because the report said that the resources does not have enough 
resources in the Long Island Sound sector to conduct other 
missions and to provide the security necessary to protect 
Broadwater. Those are not my words. Those are the words of the 
report. Given the good nature and the fortitude of these 
communities, we're still looking at a lack of resources as I 
understand it.
    Captain Boynton. Yes, ma'am. I was giving examples of 
common partnership without Broadwater, how strong it is, and 
the fact that we rely on these partnerships with or without 
Broadwater. The Coast Guard brings certain expertise that 
local, State, and, county agencies don't have and local, State, 
and, county agencies bring expertise that the Coast Guard 
doesn't have.
    For example, that deep local knowledge, that ability to be 
able to tell, well, wait a minute, something doesn't look right 
here given this locale. Some of my boat crews were born in 
Nebraska. Some of them worked most of their lives in San Diego. 
They don't have that local knowledge that the State, county, 
and locals have. So do we need to work together like a quilt? 
We do need to and we currently do.
    One of your other questions, ma'am, the cart before the 
horse in terms of resources and localities. I thought I heard 
some outrage today about the Coast Guard having identified that 
resources would be needed. Whether Coast Guard or State, 
county, local, it was clear to us as we did this 12 month study 
that there would be costs. And my view, right or wrong, was 
that it was responsible public policy to make sure people knew 
even when I did not have the ability to assign a dollar value, 
that it was responsible public policy to say there will be 
costs.
    Now I have not and will not commit State, county, or local 
agencies to those costs but I do want to send a flag that says 
there could be costs.
    Ms. DeLauro.  No. We very, very much appreciate the 
delineation of what those costs are and I think we're of the 
view that we need to have--and I suppose we could bring Mr. 
Robinson into this effort as well--if we find that the lack of 
the security resources is not sufficient, to put the project on 
hold, how is FERC going to--what are you going to do? Are you 
going to move forward? I think that question my colleague made 
mention, do you move forward when we don't know how we're going 
to take care of the security issues here and pay for those 
issues.
    And I ticked off in the earlier panel, Federal Government, 
anybody who has read the newspapers, I've ticked off for you 
what was proposed by the president's budget. We will make up 
some of that, we will address that in a budget that comes out 
of the Congress but we're not going to be able to make it up in 
the amount after dollars that we're talking about here to make 
people whole in order to be able to secure this carrier. So 
you'll go forward with or without the money for the resources 
in place?
    Mr. Robinson. I'll restate, nothing will go forward unless 
we can ensure that safety measures are in place, and let me 
give you one example of how this works. The Elba Island project 
down in South Carolina, it was worked out between the Coast 
Guard, the operator of the project, and the local Port 
Authority during consideration of conditions necessary to 
protect that facility included the purchase of two extremely 
large tractor tugs with fire fighting capabilities, purchased 
by the LNG operative.
    Those tugs are not only available for the LNG tankers but 
are also available for other operations and fire fighting 
capabilities which was not available prior to the LNG terminal 
coming into place. In fact, just not too long ago there was a 
house fire that was inaccessible by the fire trucks. The tug 
went down the river and drowned the house to put the fire out 
using that equipment to help the local community.
    Ms. DeLauro.  I just want to interrupt you for a second 
because I do sit on the appropriations committee. Let me ask 
the Coast Guard--I know there are two questions still pending 
here, I haven't lost track.
    Is there any U.S. Coast Guard analysis for anticipated need 
for the LNG security and over the next 10 or 15 years we 
understand that there's going to be an anticipated growth of 
the industry.
    Captain O'Malley. Thank you. There are--there has been 
significant discussion regarding resources and costs et cetera 
for upcoming needs for LNG. Before we get into that too in 
depth, I do want to mention in the past two months we have 
begun a multi-pronged examination of how we go about our 
business.
    For instance, in February we had members of all the ports 
involved in the LNG and perspective LNG ports gather to examine 
how we conduct business with regard to LNG. Just last week we 
had our experts from around the country meet to discuss how we 
provide our security for not only LNG but all certain dangerous 
cargoes and other law enforcement issues.
    Two weeks ago we had all the representatives from area 
maritime security meet together to discuss how we can better 
develop partnerships within our port communities sharing the 
information, sharing threat analysis, et cetera.
    Ms. DeLauro.  With all due respect, Captain O'Malley, 
truly, is there, yes or no, does the Coast Guard today have an 
analysis of anticipated needs for LNG security given 40 pending 
applications, all that we've been talking about?
    Captain O'Malley. Well, I'm sorry, I was getting to that, 
ma'am. What we're doing is these are all interwoven into how we 
deliver our security toward not only LNG facilities but all 
chemical facilities and other law enforcement needs. What we do 
is----
    Ms. DeLauro.  They can't hear you.
    Captain O'Malley. Our local cabinet reports are asked to 
look at all risks and hazards within it responsibility. That is 
then fed up through the chain of command to us. In that mix, 
Captain Boynton mentioned, there are significant partnerships. 
Every Port that has LNG, Boston, Baltimore, and the superb 
example of Elba Island have excellent partnerships with State 
and local agencies as well as the facility.
    The Coast Guard is very--we respond, you see it every day, 
Katrina was a prime example, 9/11 was a prime example. Since 9/
11 we have purchased 120 boats that Captain Boynton talked 
about. Not only the boats, associated crew that goes with it. 
We have established 13 maritime safety and security teams 
around the country. These teams are deployed to our ports when 
we hear the needs.
    We are very responsive and very nimble. And that four 
pronged approach that I talked about, Ma'am, is going to bring 
together how we are going to deliver security for LNG not only 
involved in Broadwater but across the country. It's a very 
comprehensive, very inclusive review of all our partnerships 
and fellow agencies and county effort. And when we progress 
forward this will certainly be refined to the point where we 
can take a much harder deliberate look at how the resources are 
cleaner.
    Ms. DeLauro.  Mr. Chairman, my time has gone way over but I 
just would say this; I have very great and deep respect for the 
Coast Guard. I think you're doing an amazing job. I also 
believe that the resources are limited and as I understand it, 
LNG security is not even a specific employment category within 
the Coast Guard's abstract of Operations System. But I'm going 
to--this is not about--I am just saying, I think you do an 
incredible job with the resources you have. My point 
particularly is that given the scope of what we're talking 
about here, you do not currently have the resources in order to 
accommodate what needs to be in terms of security. I'm sorry, 
Chairman.
    Mr. Bishop. Thank you very much, Congresswoman DeLauro. Let 
me first associate myself with your remarks both with respect 
to the work that the Coast Guard does which I think is first 
rate and with respect to concerns that I share with respect to 
the Coast Guard's ability to be able to staff up and have the 
resources necessary to undertake this new challenge. Again I'm 
going to exercise the right of the chair and ask a couple more 
questions.
    Captain O'Malley, the Cove Point Facility in Maryland, my 
understanding is that the original security arrangement was 
that the Coast Guard would provide security for that facility. 
My further understanding as of June of this year the security 
of that facility will be transferred to local law enforcement; 
is that correct?
    Captain O'Malley. It is correct with regard to security at 
the facility when there is a vessel moored, yes.
    Mr. Bishop. Just tell me what happened. Tell me why it was 
that the Coast Guard thought that they could originally 
undertake it and why it is now the case that they recognize 
that they either cannot or should not.
    Captain O'Malley. It is simply a matter of the partnerships 
that we talked about earlier. The local facilities were able to 
provide that security when asked and that is--that's what has 
transpired.
    Mr. Bishop. Mr. Robinson, from the perspective of the FERC, 
you have said repeatedly both this morning and in your written 
testimony that the number one consideration that the FERC has 
in assessing applications is safety and security. Does the kind 
of security arrangement that is now being put into place at 
Cove Point that, as I understand it, will be the kind of 
security arrangement that will be put in place with Broadwater, 
do you consider that to be the ideal security arrangement or 
would you prefer to see some other form of arrangement.
    Mr. Robinson. The security arrangements that are going to 
be put into place with Broadwater if authorized to construct 
and operate, we don't know the details of that yet. That would 
occur, by law, after the authorization occurs and before 
construction.
    But about your fundamental question, I think each project 
and what happens with each project develops as the local 
communities become more involved, they're trained, they become 
more aware of what these projects are about, there is a 
tendency for them to take on the first calls from when it first 
is constructed or operated. So I don't see any problem with 
that. I have great confidence in the partnerships that exist 
for security measures across the country.
    That's the way it works not just for LNG but for all of the 
terminals.
    Mr. Bishop. But the Coast Guard is a specially trained, 
highly skilled, arm of our Government, Department of Homeland 
Security. Would it not be--does it not just make sense that it 
would be preferable for the Coast Guard to undertake primary 
security responsibility for the kind of facility that we are 
contemplating with Broadwater.
    Mr. Robinson. I think, again, each project dictates what 
the security measures should be and they should accommodate 
based upon the resources and their expertise. The Coast Guard 
certainly has that expertise and at their discretion, if they 
find that one of the partners can substitute, I have confidence 
in that----
    Mr. Bishop. In fairness and this is not to aggrandize the 
role of the Coast Guard, can you articulate for me a substitute 
security arrangement that would rise to the level of expertise 
that the Coast Guard already possesses.
    Mr. Robinson. I'm not exactly sure I can answer that 
question.
    Mr. Bishop. If the Coast Guard is not going to do it, 
someone else will do it, correct.
    Mr. Robinson. I don't think that's correct at all. The 
Coast Guard will do it working in partnership with other 
entities, other law enforcement agencies, they will, on 
individual projects, determine who is best suited to handle 
aspects of security. And that's the security plan that will be 
in place. That's the security plan that we will monitor and 
make sure is effective.
    Mr. Bishop. Captain Boynton, do you want to make a comment?
    Captain Boynton. Yes, sir. I just want to comment that 
waterside security at the tanker site is more, does not equal 
the security. The waterside security alongside of the tanker is 
the end zone for the security. But if this is done right, there 
should be a whole series of layers that extend beyond the dock. 
Typically the Coast Guard has better expertise than our 
partners to be further away from shore, not in the end zone, 
but in the yard lines that extend out.
    I'm not the Captain of the Port for Cove Point, I don't 
want to speculate, but it could be that this allows the Coast 
Guard a platform that's more capable to more often be 
patrolling further offshore which is part of the security 
regime for the moored tanker.
    That security regime for the moored tanker in theory 
extends all the way to the foreign port where it picked up its 
cargo. And there are certain tasks the Coast Guard is uniquely 
suited for. When we find a partner that can help us with tasks 
that they are also suited for, we can reallocate to where we 
must be and no one else can do.
    Mr. Bishop. Thank you. Two more questions. My understanding 
is that the FSRU is going to be constructed else where and then 
towed to the mooring location; is that correct?
    Captain Boynton. Yes, sir.
    Mr. Bishop. And when it's being towed there, is it a 
vessel?
    Captain Boynton. Congressman, I can tell you that we are 
treating it in a regulatory manner once it's moored as a 
facility with vessel like characteristics.
    Mr. Bishop. Tell me what that means.
    Captain Boynton. I can, sir. If we treated this under the 
regs as a ship, it could end up being a foreign-flagged barge, 
and we did not want that.
    Mr. Bishop. But tell me why it isn't a ship. Tell me why it 
isn't a vessel. Just, for example, my understanding is that the 
gambling boats in the Gulf States are permanently moored but 
they are treated as vessels; is that correct?
    Captain Boynton. I don't have any of those in my zone so I 
shouldn't comment. I'm just not familiar.
    Mr. Bishop. I think I'm right. Tell me why this isn't a 
vessel.
    Captain Boynton. This is not a vessel because we prefer it 
not being subject to possibly being foreign flagged.
    Mr. Bishop. The Coast Guard is making a judgment call here, 
correct?
    Captain Boynton. We're making a judgment call. And under 
the regulations we can treat this as a facility with vessel 
like characteristics.
    Mr. Bishop. While it's moving, while it's in transit from 
whereever it is going to be fabricated to the port location, at 
that time is it a vessel.
    Captain Boynton. I would have to respond for the record, 
because I want to be sure to give you the absolute facts and I 
can't right now.
    [Subsequent to the hearing, Captain Boynton submitted the 
following: The Broadwater unit was analyzed by the Coast Guard 
under the principles announced by the Supreme Court in Stewart 
V. Dutra Construction Co. Inc. and determined not to be a 
vessel under 1 U.S.C. section 3; once it is permanently 
attached on its mooring post, it is not used or capable of 
being used as a means of transportation on the water.]
    Mr. Bishop. Counsel, you have a couple more questions.
    Ms. DeLauro.  Just a quick follow-up. I had another 
question for Mr. Gaffigan, but where is the vessel being 
constructed?
    Captain Boynton. I would have to defer to either FERC or 
Broadwater for that.
    Ms. DeLauro.  Can anybody tell us where this or any of 
these other vessels are being constructed? Are they being 
constructed in the United States?
    Mr. Robinson. It's unlikely it is being constructed in the 
United States.
    Ms. DeLauro.  Unlikely it is being constructed in the 
United States.
    Mr. Robinson. The vessel doesn't exist. It has not been 
authorized. There's no money being spent in that area and no 
contracts have been made with anyone.
    Ms. DeLauro.  I understand that but the assumption is it 
will not be constructed in the United States?
    Mr. Robinson. That would be my assumption. You have someone 
on the next panel who should be able to answer that.
    Ms. DeLauro.  I just wanted to ask Mr. Gaffigan about the 
assessment process which what I am concerned about was I 
believe the current assessment process preceding the siting of 
the onshore LNG terminal provides a sufficiently comprehensive 
review of the all the risks and issues associated with the 
proposed siting.
    Does the assessment process include sufficient assessment 
of the availability of Coast Guard resources to provide 
security around both the terminals and the tankers? Just a 
quick answer to those in terms of, you know, GAO's review of 
the----
    Mr. Gaffigan. Right. The work we have now is focused on the 
safety consequences. What I'll tell you is that Captain 
O'Malley mentioned other work that we're doing. So people 
aren't confused about the different GAO efforts,, you know, 
there's this report that came out in February '07. There will 
be a classified version of this which talks to some issues with 
the LNG consequences.
    The other work that we are doing is a broader look at the 
energy commodity tankers and the security threat that's posed, 
efforts to mitigate it, and the response capabilities. That 
report went to the same committees. It also is a sensitive 
report. We're working with the Coast Guard to get a public 
version of that.
    Ms. DeLauro.  So what you're saying is that with regard to 
the LNG the terminal et cetera terminal et cetera, that what 
you can't do is talk about whether or not there has been an 
assessment of the--sufficient assessment of the resources of 
the Coast Guard to whether or not they can provide security and 
that's for security reasons that you can't do that, that's 
classified document; is that right?
    Mr. Gaffigan. We did not assess, you know, for example, a 
particular facility such as Broadwater in terms of whether 
resources were there or not. What we did look at was the 
resources that were brought to bear, this report which we're 
looking on getting a public version out there, that talks to 
the resource challenges that are faced in response, who is 
going to be the first responder, all of the issues that are 
being raised today.
    Ms. DeLauro.  When is that due?
    Mr. Gaffigan. We're trying to work with the Coast Guard to 
try to take out the sensitive information so that it could be a 
public document. My best guess is in the next couple of months 
we should be able to have something out.
    Ms. DeLauro.  Thank you.
    Thank you Mr. Chairman.
    Mr. Bishop. Thank you very much. We will now excuse panel 
two with our thanks and appreciation. I know you all came a 
good long way to be here and your testimony was very, very 
helpful. Thank you all very, very much. And we will move to 
panel three. Thank you. We're not going to recess, folks. We're 
just going to go right to panel three in a moment.
    [Recess.]
    Mr. Bishop. We will now reconvene with the third panel. Our 
third panel is comprised of Mr. John Hritcko who is the senior 
vice president and regional project director for Broadwater 
Energy, LLC; Mr. Bruce Johnson, the Riverhead Town Fire Marshal 
and Wading River Fire Department in New York; and Dr. Steven E. 
Flynn, the Jeane J. Kirkpatrick Senior Fellow for National 
Security Studies, Council on Foreign Relations.
    As has been the case with our other two panels, your full 
statements will be submitted for the record we ask that you 
limit your verbal testimony at this time to five minutes and we 
will begin with Mr. Hritcko.
    Mr. Hritcko, thank you very much.

   TESTIMONY OF JOHN HRITCKO, JR., SENIOR VICE PRESIDENT AND 
   REGIONAL PROJECT DIRECTOR, BROADWATER ENERGY, LLC; BRUCE 
    JOHNSON, RIVERHEAD TOWN FIRE MARSHAL, WADING RIVER FIRE 
 DEPARTMENT; AND STEVEN E. FLYNN, JEANE J. KIRKPATRICK SENIOR 
   FELLOW FOR NATIONAL SECURITY STUDIES, COUNCIL ON FOREIGN 
                           RELATIONS

    Mr. Hritcko. Thank you, Congressman Bishop, and thank you, 
Congresswoman DeLauro, for this opportunity to appear in front 
of the subcommittee on behalf of Broadwater LLC.
    My name is John Hritcko, Jr., and I am senior vice 
president and Regional Project Director for Broadwater LNG LLC. 
Broadwater is a joint venture comprised of subsidiaries of the 
Shell Oil Company and TransCanada Corporation.
    Broadwater proposes a project that would bring a new source 
of reliable, long-term, competitively priced natural gas supply 
to the Long Island, New York City, and Connecticut markets will 
be commonly referred to as the region. Broadwater has 
undertaken an extensive regulatory review process at both 
Federal and State levels led by the Federal Energy Regulatory 
Commission, or FERC, designated as the lead agency.
    As part of that review, a Draft Environmental Impact 
Statement, a DEIS, was released by FERC late last year. 
Incorporated into the DEIS was the Coast Guard's assessment of 
safety and security issues related to determining the 
suitability of Long Island Sound for the Broadwater project 
called the Waterway Suitability Report.
    My prepared statement, previously submitted for the record, 
summarizes the detailed application submitted by Broadwater to 
FERC with emphasis upon the need for the proposed facilities, 
highlighting the measures to be incorporated into the project 
to maintain safety and security of the operations and facility, 
and reiterates Broadwater's commitment to safety and security 
without burdening the local population.
    This region faces enormous challenges with regard to 
energy. The cost of energy in general and particularly the cost 
of natural gas is the highest of the lower 48 States in this 
Region. This Region experiences dramatic upward price swings 
during periods of peak demand, on the coldest winter days when 
heating needs are the greatest and during the summer when 
electricity for cooling are the greatest.
    Broadwater is a supply-side proposal seeking to deliver a 
large, new, diversified supply of natural gas directly into the 
region. This would be accomplished by siting, constructing, and 
operating an LNG marine import and regasification terminal in 
the Long Island Sound, nine miles from Long Island shoreline, 
which is to be connected to the existing natural gas pipeline 
serving this region.
    Natural gas would be transported and delivered to the 
Broadwater terminal as a liquid by specially designed ocean 
going vessels all called LNG carriers. The LNG would be 
transferred from the carriers to Broadwater and slowly warmed 
back into the gas and delivered into the pipeline over a number 
of days.
    The siting of the facility was determined based upon a 
comprehensive and interactive process that evaluated potential 
terminal designs and sites throughout the entire Long Island 
region, including both onshore and offshore locations. This 
siting process evaluated potential sites against a wide range 
of environmental and socioeconomic criteria. The process and 
analysis is fully detailed in Broadwater's application filed 
with FERC.
    The economic benefits of having one Bcf per day of natural 
gas delivered directly into the region by Broadwater are 
extremely compelling. Broadwater estimates that the wholesale 
energy savings to the region would total nearly $10 billion 
over the life of the project or approximately $300 to $400 per 
year in direct and indirect cost savings for the average home 
in the region.
    Beyond the economic benefits, Broadwater would provide a 
substantial amount of natural gas that could greatly assist in 
helping New York and Connecticut meet its clean air 
requirements as well as climate change goals under the Regional 
Greenhouse Gas Initiative.
    The safety and security of the adjacent communities and 
other users of the Sound and the facility is of the highest 
priority to Broadwater. Key aspects of Broadwater's safety 
controls and security measures are detailed in the FERC 
application. Incorporated within the design of the facility is 
a layered approach to safety and security.
    The FSRU will be designed to withstand severe weather 
conditions and natural catastrophes. Although Broadwater 
terminal may be among the first FSRUs in operation, it does not 
rely on new technologies. As such, Broadwater has been able to 
develop safety and security measures that are proven in the 
industry today.
    Broadwater will meet the requirements outlined by FERC and 
the Coast Guard and I would like to assure this Subcommittee 
and the public that we have already made provisions within our 
preliminary budget estimates of these requirements to ensure 
the burden for protecting the facility and responding in the 
event of an emergency is carried by the project itself.
    For example; it has been stated that Broadwater will 
provide the necessary fire fighting tugs as well as security 
personnel to protect the facility. The project recognizes that 
local first responders and communities do not have the 
capabilities to respond to an incident at the facility nor 
would we call upon the shoreline communities.
    At a minimum, however, we would expect to establish 
communication plans and protocols with the appropriate agencies 
or departments so that necessary coordination and 
interoperability between Broadwater and various parties is 
established. Broadwater is also committed to ensuring that 
these parties are involved, to the extent that they are 
willing, in the development of the Emergency Response Plan and 
security procedures.
    In closing, I would like to emphasize Broadwater's 
commitment to the stakeholder engagement. Since announcing the 
project in November 2004, the project has strived to reach out 
to as many Long Island and Connecticut groups and individuals 
as possible. We have taken much of the feedback and 
incorporated it into the development of the project so that the 
benefits of the facility are maximized and the impacts are 
avoided or minimized.
    We will continue to meet with interested groups and 
individuals who have seen a growing level of understanding 
about the project and its role in addressing the region's 
energy and environmental challenges. Thank you.
    Mr. Bishop. Mr. Hritcko, thank you very much.
    Mr. Johnson, you're recognized for five minutes.
    Mr. Johnson. Good afternoon. Thank you, Congressman Bishop 
and Congresswoman DeLauro. It's a pleasure to be here before 
this Congressional hearing today. You have my written comments 
and there are a few things that I would like to highlight 
during my testimony this afternoon. As part of my 
qualifications, I've had the honor and ability to serve as a 
volunteer fire fighter here on Long Island over the last 25 
years, and that's unique because our fire services to our 
communities have been provided by volunteers who do an 
outstanding job and they are truly unpaid professionals.
    And it's important to note that this group has continued to 
partner not only within our own associations mutually but now 
with other partners like the Coast Guard particularly following 
the events of 9/11 through the development of national response 
plans and our training of as NIMs (phonetic) and we're going to 
continue to develop those partnerships.
    It's also important to understand that Long Island, and I 
believe to some extent Connecticut, we have a multiple number 
of emergency response agencies that we need to unite, whether 
it's for the review of the Broadwater project or just about to 
coordinate our response activities here in Suffolk County on 
Long Island with our partners across the Sound.
    We're a home rule State. That means that each of the 
municipalities are a taxing entity and they have their own 
authority within their individual fire districts, so 
coordinating those efforts is going to be a significant task. 
But none is less a very important task as we move forward 
particularly if we need to develop an emergency response plan 
for the Broadwater project.
    It's also important to note that it is not unusual and 
certainly is not unprecedented here right in Suffolk County 
that volunteers are working closely with paid professional fire 
departments such as that that protects the Islip Airport, 
protects the Brookhaven National Labs facility or Plum Island. 
And those groups are part of our mutual aid agreements and we 
work regularly with them for fires and Hazmat emergencies.
    It's also important to emphasize that as the Coast Guard 
position, my position as emergency responder and Fire marshal 
for the Town of Riverhead is to take a position neither in 
support nor opposition to this project, but to be an impartial 
judge and to look at the risks and to look at the mitigation 
strategies and determine, if we can, come up with mitigation 
strategies to make this facility safe and then to report those 
to the appropriate agencies for final decision.
    There are a number of stake holders, as I mentioned, that 
are going to be involved in this process, not just through 
Suffolk County but we have local, county, and State officials 
here in New York as well as our counterparts in Connecticut and 
possibly Rhode Island need to be united as we work towards the 
review of this process and we look at developing an emergency 
response plan that may be appropriate for the facility.
    And that process certainly needs to involve not only these 
multiple responders, the Coast Guard and FERC, and also 
Broadwater because they have the lot of technical engineering 
expertise that's associated with this project and they will 
provide the resources that will be necessary for the work of 
this group.
    I think it's important that we take the time, and the time 
is probably now, to begin identifying all of these stake 
holders and bringing them together under the direction of the 
Coast Guard to continue the work that was done during 
Broadwater's assessment and the security and safety analysis 
that the Coast Guard and Captain Boynton's spoke of earlier.
    This is really the first time that a lot of us first 
responders got to meet our counterparts from Connecticut and 
begin looking at what capabilities we have, what strengths and 
resources, and start to build a network that we can build upon 
for energy response in the Long Island Sound.
    That process needs to continue but it's essential that we 
bring the right people to the table. And one of the things that 
I think is really critical is that we have to really work 
really hard to get the participation of both local, county, and 
State responders that will come to the table that will probably 
work for as long as 18 to 24 months to make that review and 
that emergency response plan a good, working, well thought out 
document.
    Part of what we know right now from some of the other 
testimony of the reports, there are things that we know about 
LNG transport, there is a lot that we need to confirm, and 
there's some other studies that may need to occur. And I think 
for first responders, this is something new for us.
    We have learned how to deal with a lot of other hazards 
that are associated in our response areas here in Suffolk 
County, things that have become part of our area. We have 
obtained training and we're able to respond to those 
emergencies.
    But we're going to need training and we're going to need 
access to expertise in the LNG area for us to participate and 
really understand the hazards, the risks, and the appropriate 
mitigation strategies when we talk about fire incidents, when 
we talk about Hazmat, or other incidents not related to 
security that could be associated with this project.
    I hope that through this review process, we'll be provided 
the opportunity to do so and that any cost associated with that 
will be borne by the applicant, and that's not unusual for 
anything that we look at in our municipal jobs, when we review 
commercial projects, that we have certain expertise that may be 
provided to us at the cost of the applicant.
    I see my time is almost up but, again, I think the planning 
process is really the key. The time that goes into that is 
going to be as important, if not more important, than the 
finished document because that is going to unite the first 
responders here in Suffolk County with our counterparts across 
the Sound and is going to prepare us for any sort of emergency, 
or better prepare us for any sort of emergency, whether it's 
associated with the Broadwater project or anything else that we 
may have been called upon to do.
    So I hope that this congressional hearing today will lead 
us to that next process and it will allow us the opportunity to 
work together as first responders to come up with appropriate 
strategies and deliver a report that will hopefully answer some 
of the questions that we have not been able to answer today 
about safety, about what assets we have locally, and certainly 
the cost of those potential assets. Those are all the things I 
think will come after we have completed our work and the 
analysis necessary for the emergency response plan.
    I thank you for the opportunity today and I will be 
certainly be available for any questions you may have.
    Mr. Bishop. Mr. Johnson, thank you.
    Dr. Flynn, you are recognized for five minutes.
    Mr. Flynn. Thank you. Chairman Bishop, Congresswoman 
DeLauro from my home State of Connecticut, it's an honor to 
appear before you to discuss the security issues that are 
associated with the growth of the LNG industry within the 
United States. Given the obvious location of this field hearing 
today, and the interest it has generated with so many of the 
people gathered here, I will also offer my assessment of the 
security risks associated with the Broadwater Energy proposal 
for Long Island Sound.
    Since 9/11, I've testified on 18 occasions before Congress 
on the issues associated with homeland security, generally, and 
port maritime security specifically. Most recently on March 19, 
2007, I testified to the potential security risks associated 
with the chemical and petrochemical industry within the United 
States.
    In that testimony, I made the case that many of these 
facilities represent the military equivalent of a poorly 
guarded arsenal of weapons of mass destruction. Deadly 
chemicals are often stored in large quantities in densely 
populated areas, for instance, near some very important 
infrastructures such as water treatment plants, bridges, energy 
facilities, and transportation hubs.
    I suggested it was perplexing that a Nation that has 
expended so much blood and treasure searching for weapons of 
mass destruction in Iraq would allow what could be their 
equivalent to sit largely overlooked on the United States's 
soil. I also pointed that it is prudent to recall that on 
September 11, 2001 Al Quaeda did not import weapons of mass 
destruction, they used four domestic airliners as them.
    Like many students of terrorism, I believe that Al Quaeda 
or one of its growing number of radical jihadist imitators will 
attempt to carry out a major terrorist attack on the United 
States within the next five years. At the top of the list of 
likely targets is the chemical and energy industries. I make 
this case in part because this is what's happening in Iraq and 
Saudi Arabia and the middle east. The skills are being refined, 
they are being shared in Jihadist internet chat rooms, and the 
number of people engaged in terror has grown since 9/11.
    While the safety and security risks associated with the 
chemical and petrochemical industries are real, it is also a 
risk we must roll up our sleeves and strive to effectively 
manage.
    For a long time energy was cheap, reliable, and its source 
was largely invisible to the vast majority of Americans. Those 
days are gone. Energy will cost more. It will be more 
susceptible to disruption by both natural and man-made sources, 
and the sources for producing it cannot be kept out of sight 
and out of mind. As a society, we will have to have an adult-
like conversation about how we manage the risks associated with 
our continued reliance on the energy sector.
    Let me be clear, there are important security issues 
associated with the LNG industry as there are with the 
operation of oil and gas refineries, power plants, and the 
transportation and storage of hazardous chemicals associated 
with the energy sector. Most recently I've written of the 
danger to Boston should the LNG tanker be attacked by two small 
boats manned by suicide attackers armed with the latest 
generation of Improvised Explosive Devices.
    Given the number of people living and working on Boston's 
waterfront and the difficulty of quickly evacuating such a 
congested area, the immediate loss of life is likely to be 
10,000 or more. There would be a large number of subsequent 
fatalities due to inadequate capacity at hospitals to treat all 
the burn victims.
    This is a frightening scenario, but it's not one to be used 
to suggest that LNG always poses an unacceptable risk to the 
public. Rather, it highlights that the location of an LNG 
facility and the transit route of the LNG tankers that dock at 
that facility is the critical ingredient in assessing the 
safety and security risk.
    There is no explosion or mushroom cloud associated with an 
LNG fire. Because it is stored at such an incredibly cold 
temperature, it is difficult to ignite liquefied natural gas. 
It must first spill out of the hull and turn into vapor. Once 
the gas does ignite, it burns very hot but the range of the 
fire would be contained to under one-half mile. Also, unlike a 
crude oil spill, once an LNG fire burns itself out, there is no 
natural gas left over to contaminate the maritime environment.
    My recommendation for preventing the hypothetical scenario 
I outlined for the Boston Harbor is to construct a replacement 
LNG facility on a more remote location in the harbor's entrance 
or to place it further offshore. If an LNG tanker did not need 
to transit within one mile of a densely populated area, it 
makes a far less attractive target for a suicide attack by 
terrorists. This is because, while the fire would be 
spectacular to watch, the consequences would not.
    This brings me to the Broadwater facility proposal. The 
proposed location of the facility is 10.2 miles from 
Connecticut and 9.2 miles from New York. And the small number 
of transits per week made by the tankers arriving through the 
Race at the eastern end of the Long Island Sound would not put 
the potential burn-radius in contact with any population 
center.
    It short, a successful attack on this facility or on the 
tankers traveling to this facility would not endanger the 
general public. As such, it can offer no real appeal to 
terrorists who are intent on causing mass U.S. Casualties.
    However, there is a different kind of security risk 
associated with the proposed Broadwater facility and for other 
LNG facilities located offshore or in remote locations. That 
risk is that these facilities are likely to make attractive 
economic targets. This will particularly be the case in the 
northeast and other regions as they become more dependent on 
natural gas for the generation of electricity. By 2010 close to 
50 percent of New England's electricity will be generated by 
natural gas.
    Should the Broadwater facility be constructed as designed, 
it will provide nearly one-third of all the daily natural gas 
needs from Connecticut to Long Island. Accordingly, an attack 
on unprotected LNG facilities could lead to long-term black 
outs or brown-outs. This applies as well to other critical 
facilities within or adjacent to America's waterways.
    One potentially positive result of the surge in public 
interest surrounding the safety and security of new LNG 
facilities and shipments is that it provides an opportunity to 
point out the extent to which Americans are becoming 
increasingly dependent on energy infrastructure that must 
operate within a maritime and coastal environment.
    Quite simply, in the post 9/11 world the United States can 
no longer rely on the relative safety of the Atlantic and 
Pacific Oceans when it comes to protecting what is valuable and 
vulnerable within and alongside the U.S. Harbors and waterways.
    In the post 9/11 security environment, we must put in place 
on America's waterways the means to conduct something akin to 
community policing. This would represent a sharp departure from 
the current posture that relies on providing nominal resources 
to the U.S. Coast Guard and only token State and local harbor 
patrols. The Coast Guard is simply overwhelmed with its current 
missions and is unable to provide stepped up capabilities. 
Locals don't have the resources in place to do this as well. So 
what is required is a national capacity to maintain a regular 
cop on the beat presence in waterways proximate to critical 
infrastructure. We should move to a patrol presence, though not 
an episodic one.
    As I have examined the report for Broadwater, I think that 
Captain Ford is right, this is a manageable risk, but I would 
add that we need to move to a place where, and I also agree 
with him, that it's a natural risk in the context of additional 
measures to mitigate that risk.
    Frankly the major findings of the Coast Guard's Report on 
Broadwater could be extrapolated to the issue of locating LNG 
facilities nationwide. First, there's no serious risk to public 
safety as long as the facility and the vessels that transit 
them are at least one mile away from a population center. 
Second, the security risk connected with terrorists potentially 
attacking these facilities is a manageable one as long as there 
is enough patrol assets available to routinely monitor the 
maritime environment in proximity to these and other critical 
assets.
    Managing the risk will require a new commitment in 
resources at the Federal, State, and local levels. I made the 
recommendation that the Federal Government undertake a maritime 
version of the Department of Justice's COPS program and bolster 
the capacity of State and local law enforcement agencies to 
hire additional assets to support an ongoing presence to 
safeguard the safety and security of America's waterways.
    The bottom line is this Nation has spent every day since we 
got into Iraq $250 million a day for four years plus dealing 
with the hazard beyond our shores. Yet we seem unable and 
unwilling to commit the ample resources necessary to deal with 
the ongoing risks to vital assets within our maritime 
environment. That kind of approach in dealing with the security 
threat we face today is unacceptable. Thank you very much, Mr. 
Chairman, and I look forward to your questions.
    Mr. Bishop. Thank you, Dr. Flynn.
    I have my first question for you, Dr. Flynn. In your 
written testimony you compare the size of the Coast Guard to 
the NYPD. We all know that the scope of the territory the NYPD 
is responsible for patrolling is microscopic in comparison with 
the scope of the territory the Coast Guard is responsible for 
patrolling.
    And if I could quote from your testimony, you say the Coast 
Guard, quote,"is in no position to provide anything more than 
an episodic patrol presence even in the busiest of waterways 
such as the Long Island Sound or the Port of New York and New 
Jersey."
    Now, given your extensive knowledge of the Coast Guard, 
your service in the Coast Guard, given your knowledge of their 
current abilities and the requirements to adequately protect 
critical maritime infrastructure as well as their numerous 
other responsibilities, what are your thoughts on why it is 
that the Coast Guard has not yet projected a cost for securing 
this facility?
    Mr. Flynn. Well, I think the challenge is overall that we 
have these critical maritime infrastructures on harbors and 
waterways and the kind of redesign the Coast Guard would have 
to embrace, is a particular emphasis on small boat operations 
and essentially more patrol assets on an on going basis. This 
again is moving from the fire house kind of capabilities the 
Coast Guard currently has to get specific intelligence after 
which the Coast Guard moves, that maybe confronts a threat of 
armed forces and otherwise.
    Otherwise, in case of an incident they can respond to, it's 
very difficult to maintain an on going presence with 40,000 
people spread across three million miles of patrol area and 
95,000 thousand miles of coastline. So you're talking about a 
fundamental reengineering of the Coast Guard to build a sort of 
community policing approach to manage the waterfront.
    This is happening in a time when its offshore assets are 
literally falling apart. And so its primary mission is then to 
try to keep problems evolving before they get onshore out there 
in that environment. They're barely able to do that. And then 
there's this new need here for active presence to deal with 
this growth of critical maritime assets within the maritime 
system.
    There's nobody talking about plussing up any serious 
resources beyond the rate of inflation. So you just can't get 
there from here. And the Coast Guard, I think, has looked at 
what to do via the coastline. It's relying primarily on this 
notion of a sort of strategic depth in the hopes of being able 
to stop the threat along with a combination of new regulatory 
regimes and local help and other stuff that we can wade our way 
through this.
    Mr. Bishop. Let me ask the same question I asked Captain 
Boynton and Mr. Robinson from FERC; and that is, would it not 
make more sense for there to be a national policy with respect 
to these siting issues of LNG facilities? We have 40 
applications. My understanding is that the current process is 
we're going to go through each one individually, assess each 
one on its own merits, and then determine whether or not the 
Coast Guard can adequately provide protective services for 
them.
    Would it not make more sense to deal with these 40 
applications in some cohesive way so that they're able to make 
informed judgements about our ability to service them and 
secure them in a macro sense as opposed to this, as I say, 
stereotypical decision; decision one, then decision two, and 
then decision three?
    Mr. Flynn. Absolutely. This is nuts the way we're doing 
this.
    Mr. Bishop. Don't sugarcoat it.
    Mr. Flynn. Essentially, it's like going around the Country 
with a bunch of straws and spitballs and try to toss them 
around and hope something will stick. This is not the way this 
country should be dealing with reality. And we will need LNG, 
because of diminishing production of natural gas locally and 
rising population--you know we're going to add another 100 
million people to this country in the next 25 years.
    We can't rely on this ad hoc process that we're using now 
to get what we need. What I particularly worry about as I look 
at this natural gas need, the liquefied natural gas, is 
virtually all the facilities are going to end up down the Gulf 
Coast because that's going to be sort of the easiest place 
locally to put these things. That means we're going to go from 
100 year storms to 10 year storms by 2050 given the climate 
change. And we're going to increase the dependency of the 
utility sector on the use of natural gas.
    So literally the lights are going to go out in big portions 
of the country. We have to have an adult-like conversation 
about where to locate these, not just simply for the purpose of 
the economics, but as a nation our vulnerability itself goes up 
as we import more of this natural gas and become more dependent 
upon it, but we concentrate in such a narrow geographic area. 
We've got to change this process.
    Mr. Bishop. Thank you very much.
    Mr. Hritcko, I wanted to ask--I want to focus in on the 
issue of the potential savings that Broadwater continues to 
talk about three to $400 per family saving for families on Long 
Island. Now, presumably that number derives from some 
calculation of cost of obtaining the, again, the energy, the 
cost of operating, the cost of getting it there, the cost of 
operating efforts are huge; all of the different costs that 
will allow you to calculate what you are going to charge which 
will then allow you to calculate what families will save.
    My questions is rooted in the fact that it doesn't seem as 
if we have a clue as to what it's going to cost. I mean, we 
know that the Coast Guard has not made any assessment with 
respect to what it is going to cost.
    We know that the Energy Policy Act mandates the cost share 
with local municipalities with respect to protection and 
securing services. But we also know that there has been no 
definitive discussion, no concrete discussion with any of the 
local government agencies with respect to what they're going to 
need to bring to the table, what the costs will be, to what 
extent you would reimburse those costs.
    So in the absence of--or in presence of all of those 
unknowns, how is it that you can put out there a number that, 
at least gives people reason to say that there's a cost benefit 
here and that the benefits outweighs the cost when we don't 
really know how real or illusory that benefit is.
    So with that as a very lengthy question, how do you get to 
that number and how can those of us reasonable people that are 
trying to assess this, how can we put any with reliability on 
that number?
    Mr. Hritcko. Well, to respond to your question and, 
Congressman, I'm sure you're aware it's a multiple tiered 
question at best.
    Mr. Bishop. Yes.
    Mr. Hritcko. Let me say that the price of natural gas here 
in the United States is set by an open market. And what we're 
looking at here is an analysis of what would happen if we bring 
in a large new supply of natural gas directly into this region 
that needs it so badly and it is so constrained in terms of 
infrastructure as to how it's going to obtain its supply in the 
future.
    You mentioned a lot of things about what it's going to cost 
Broadwater, what it's going to cost. That doesn't get to the 
point of what the impact would be here in the market place if 
you have this gas delivered. That gets to the point of what 
would the price be to suppliers or to the operators of the 
facility.
    What we look at and what we presented in the application 
was the analysis of the U.S. market, and more particularly this 
regional market, of what economic impact would be entailed by 
bringing in this large supply of gas. That turned out to be, as 
I stated in my testimony, as is stated in the FERC application, 
approximately $10 billion over the lifetime of the project.
    Well, we put that in the application and so many people 
came back to us and said, well, that doesn't really mean 
anything. What does that mean to me? That's sort of like 
talking about the national debt. They asked us to break that 
down further. So we went back and we took that number, based on 
economic analysis of the market, this $10 billion savings, and 
we determined that it would be a savings to the region of $680 
million a year.
    And then the economists went further in using their 
econometric modeling and government statistics on energy use, 
the price of energy, and they broke that down further into a 
number that now appears as the 300 to $400 per year annual 
average savings for both direct and indirect cost.
    Now what I have to point out is that that number reflects 
both customers who use natural gas and electricity. A majority 
of this natural gas is going to be used to generate 
electricity. So even people who do not have natural gas in 
their homes will actually realize a savings because of the 
lower cost of electricity.
    So that is sort of the long-winded response to a portion of 
your question, but I hope that responds.
    Mr. Bishop. Yes. And I'm not trying to ask you to do 
something that--I'm not very good at predicting the future, I'm 
going to assume not too many people in here are or we would be 
playing the lottery. So, what level of certainty can you assign 
to that number? Because it just seems to me, I'm not an expert 
by any means in terms of how the energy market works and in 
terms of pricing, but it seems to me that if you have a set of 
costs that you're estimating, one component of which is your 
operational cost which assumes--which includes security and 
that number is going to change.
    That number is going to be significantly higher than you're 
anticipating, then the cost of delivering the energy is going 
to go up; therefore, you're going to charge for more for that 
energy. So, I guess my question is can you or can you not tell 
us with any reasonable degree of certainty that the average 
Long Island family is going to save three or $400?
    Mr. Hritcko. I think maybe the best response to our degree 
or level of certainty, Congressman, is the fact that we believe 
that the market is in such need of this gas and that this would 
be a long-term solution for this region that we are willing to 
invest a billion dollars in this facility to serve this region 
long-term.
    Mr. Bishop. Is there any calculation of the cost to the 
taxpayer of the additional services that would be needed to be 
undertaken like the Coast Guard, by the Town of Riverhead, by 
Suffolk County, by the Town of Brookhaven, any of the 
localities along the shoreline of Connecticut, a calculation of 
what the cost to the taxpayer will be?
    Mr. Hritcko. While I understand your desire to get to the 
figure, the situation that we're in right now is that we're at 
the beginning of the process of talking to emergency first 
responders on both sides of the Sound, not only on Long Island 
but also Connecticut and Rhode Island, folks like Mr. Johnson 
here who is the fire marshal for Riverhead and others like him.
    We will not only seek to determine what assets and 
capabilities are currently here but also what's going to be 
needed and then develop an emergency response and security plan 
based upon that. That's a long process. That's going to take us 
quite some time and we're in the early stage of the process. 
For me to speculate at this point wouldn't be prudent.
    Mr. Bishop. I guess my concern, my skepticism is that a 
positive number is being put out there at the beginning stages 
of this process but what might possibly be a negative number, 
that is to say the cost to the taxpayers for additional Coast 
Guard resources, the cost to the taxpayer for additional Town 
of Riverhead resources, that number remains an unknown until 
we're much deeper into the process and I have some concern 
about that.
    Mr. Hritcko. Let me clarify one point. That gets back to 
the original question. You seem to imply that the cost would 
somehow be reflected in the price. In fact, as I stated 
earlier, the price of natural gas is set by the open market. 
The price is what the price is, it's not something that 
Broadwater or the suppliers will be able to dictate. The cost 
will be determined whether or not we either we make a profit or 
we don't----
    Mr. Bishop. In other words, let me put this in terms I 
understand. To the extent that the cost associated with 
operating the Broadwater facilities, securing the Broadwater 
facilities, cautionary subjects--to the extent that that number 
is larger than you're currently thinking it might be, the 
impact of that will be on the profit margin of Broadwater and 
not on the price of the energy that goes to the homes on Long 
Island?
    Mr. Hritcko. Exactly. We have to decide whether or not we 
would go forward with this project if the cost became so large 
that it makes this project unviable. We don't believe that it's 
not viable. We think that those costs are in fact workable.
    Mr. Bishop. Thank you very much.
    Congresswoman DeLauro.
    Ms. DeLauro.  Thank you very much. Let me just--Dr. Flynn, 
I didn't allow Captain Boynton to answer the question about 
what else is the Coast Guard is charged with protecting, what 
their scope of mission is, which is very broad and they do an 
excellent, excellent job. But the mission is the area of 
responsibility, Long Island Sound, Coastal Connecticut, North 
Shore of Long Island, South Shore of Long Island, three deep 
water ports; New London, New Haven, Bridgeport offshore, 
facilities located in Riverhead and Northport, search and 
rescue, ports, waterways, coastal security, aids to navigation, 
domestic acts and operation, environmental protection, living 
marine resources, marine safety, maritime law enforcement, 
illegal drug missions, MTSA regulated facilities, security 
zones during Naval unit escorts, maritime security presence, 
shoreside waterside security patrols, port infrastructure 
located within the sector the but not limited to, Millstone 
Nuclear Power Plant, U.S. Naval substations New London, Cross 
Sound Ferry, Bridgeport Port Jefferson Ferry, Electric Boat, 
U.S. Naval substations, securing zones at New London Naval 
Base. It goes on further here, just to tell you home heating 
oil reserve in New Haven, pipeline supplies, Department of 
Defense Connecticut and other States, coordinate the Department 
of Agriculture, the Department of Homeland Security, Water 
Security measures for Plum Island and----
    Anyway, it is extensive and as I say they that do an 
unbelievable job. Now you have mentioned in your testimony that 
you believe that we ought to try to have new commitments in 
resources on the Federal, State, and local levels and undertake 
a community-oriented police services program, a COPS program.
    I might just add to you for your information here that the 
COPS program was eliminated inside the most recent past, 
eliminated though worked well. So in terms of thinking about 
how you expand operation from what we're doing now and try to 
put a new system in place, Federal resources let alone State 
and local are almost nonexistent. Now I anticipate you will 
address some of those needs but not to the extent that you're 
talking about.
    Now, the question is, do you think that you've got a safe 
and secure arrangement for local law enforcement currently to 
assume some of responsibility for providing security for these 
tankers at these terminals, local, your sense of local law 
enforcement in terms of this effort?
    Could the Coast Guard or local law enforcement 
realistically intercept a boat attack? Do you believe that the 
security zones created around the LNG tankers are adequate and 
that the Coast Guard is adequately armed and equipped to 
enforce these zones?
    Mr. Flynn. The answer is no, there are not adequate 
resources here in the Long Island Sound to deal with the 
general challenge of implementing an on going layered security 
approach to this potential threat. The biggest opportunity to 
deal with a small boat attack on a ship is not the actual 
operation of the attack.
    You're talking about a 20- to 30-second response time that 
you're asking somebody in a small boat in a patrol craft to say 
this person is not a knuckle head but is actually somebody who 
is intent on a suicide attack on a ship. And then they have to 
be able to shoot at a moving target from something also moving. 
That's a very difficult thing to do.
    The time that we find to intercept this is during--the bad 
guys would not just show up, get on a plane, come here, get on 
a Zodiac and decide to charge out and go after a tanker. They 
do surveillance and they do dry runs. With a suicide attack you 
get one bite at the apple, that's it. That's the time when you 
are best suited both to put in place a deterrent.
    When they go out there and patrol and see there is a 
presence and that the risk of failure goes up. But also, the 
detection goes up when you're there. I worry about the current 
approach that the Coast Guard is taking because of the 
resources it has. All it allows us to do is an episodic patrol 
built around guesswork.
    We basically--they surge up for the evolution of an LNG 
shipment, a ship coming in, a tanker coming in, off-load, and 
then almost collapse with total exhaustion afterwards because 
it's all the resources they have. And so basically the presence 
goes down in many cases. Now that is being made up in places 
like Boston Harbor, by locals who are helping out and some 
investment is coming at a cost.
    The fundamental issue here is as a Nation we're simply not 
appreciating the fact that we are incredibly dependent on 
maritime environment for our way of life and our quality of 
life. And today we've been getting by on the cheap. The Coast 
Guard is the size of the NYPD and it's responsible not just for 
the Continental U.S., but Hawaii and Alaska. It's also 
operating in the Persian Gulf right now providing safety 
patrols as a part of our war effort over there.
    This is a very spread thin outfit. My last real job was as 
the Captain of the buoy tender here on the Long Island Sound 
from Block Island to East River, so I know these waters well. 
There isn't a lot of presence out here. It's a difficult area 
to patrol particularly in the middle of the Sound. It's a 
doable issue in terms of managed risk if we're willing to 
commit to the resources. Right now we have not done that and we 
don't have the capacity, I think, to manage, not just the LNG 
issue but the broader issue of a lot of critical 
infrastructure, there's a lot of waterways that remain a factor 
as a potential target for terrorist attack.
    Again, this seems crazy to me to spend the amount of 
resources we are. This year we will spend over $660 billion on 
our National security and intelligence apparatus to confront 
threats beyond our borders but we can't seem to marshal hardly 
any effort here to safeguard the critical assets here at home. 
It just seems entirely backwards to me that we're still 
operating this way.
    Ms. DeLauro.  Thank you for your thoughtful approach to 
this issue. Mr. Hritcko, in its proposal Broadwater has stated 
that they will employ a private security company to patrol the 
FSRU task force meetings, public hearings that deal with 
concerns about the use of private security companies 
specifically. There are no provisions in current Connecticut 
statutes allowing for private security forces to be used in 
open waters.
    In fact, Connecticut does not provide any enforcement or 
arrest powers to either State or local law enforcement 
officials on open waters. Who, what agency or government entity 
has the right to bestow its powers on a private security force? 
Is there a licensing involved? What should be required of armed 
patrol boats and the employees of such companies? Do 
Connecticut and New York need to develop reciprocity language 
as far as enforcement or arrest powers are concerned? There are 
no clear boundaries on the open water.
    Mr. Hritcko. Let me start by stating that we have not made 
the determination as yet as to whether we would in fact employ 
private security. This is one of issues that we're discussing 
with first responders in both sides of the Sound. We may have 
to employ private security for that purpose. However, that's 
part and parcel of the discussions that we're now having with 
the first responders on both sides of the Sound
    Ms. DeLauro.  One second. You said that Broadwater will 
have its own 24 hour a day security protecting the facility 
when it's built as well as a staff of first responders, some of 
the secure staff maybe hired from an agency. That was from the 
Suffolk Life Newspaper on April 27.
    Mr. Hritcko. Maybe, maybe, maybe. That's the key thing. 
We're in discussions right now with first responders for both 
sides of the Long Island Sound to discuss that matter and to 
develop those plans. In the Coast Guard's WSR, they indicated 
there's a number of ways in which we can ensure the safety and 
security of this facility. And our discussions are to be with 
these various agencies in order to define how in fact we will 
proceed forward. So for us to discuss, to say that that will in 
fact be the case, I cannot say that definitively right now.
    But what I can say is some of the issues that you raised in 
fact are legitimate issues. But I would also point to the fact 
that private security firms have been part of security 
operations for a number of facilities not only in New York 
State but in Connecticut and the nuclear plant. It's also in 
occurrence in other parts of the United States including the 
Ports in Florida where cruise ships leave the harbors as well 
as other facilities, the LNG facilities here in the United 
States.
    So it's not a new or innovative type of response. It's 
something that we considered in terms of development of our 
emergency response.
    Ms. DeLauro.  I'm just saying that Connecticut does not 
provide an enforcement authority or arrest powers to either 
State or local law enforcement on the open water. One of the 
other things I think that you said with regard to security that 
well, quote, "we will not burden the taxpayers with the cost of 
security for this facility." Is that something you can state on 
the record as true?
    Mr. Hritcko. We have said it before and I'll say it again, 
it is true, yes, in fact that is true. This is no different 
from anywhere else that companies like Shell and TransCanada 
and other energy companies operate. We operated in the Gulf of 
Mexico for years and from the Texas shoreline to Louisiana, to 
the Mississippi shoreline where you have extensive offshore 
operations.
    We do not call on we do no burden those States with the 
extensive security and emergency operations. We have to provide 
it ourselves. Likewise in the North Sea, we have to provide 
that ourselves. Throughout the world--this is not something 
new. This isn't something that's unique for us. We do this 
every day and this is one of the a challenges of developing a 
project of this nature.
    Ms. DeLauro.  I would say with regard to Connecticut as I 
understand it, and I, please correct me if this is incorrect, 
plan for law enforcement agencies, you have not addressed 
Connecticut at all yet a tanker travels through Connecticut 
waters and if tragically something happens there, it would be 
our local responders who would respond.
    As far as I know there have not been any conversations with 
regard to Connecticut and tankers traveling through 
Connecticut. I just pointed out that the Coast Guard does have 
the ability the stop ships without probable cause but local law 
does not at the moment. So that would require a different set 
of authorities.
    Mr. Hritcko. Your first statement that we have not 
considered Connecticut is wrong. We have spent a great deal of 
time in Connecticut. The WSR addresses the issue of the routes 
traversing Long Island Sound the tankers would make. In fact, 
we have already begun engaging Connecticut first responders on 
a number of different levels with regard to the emergency 
response and safety and security plans for Broadwater.
    In fact, they point out to us that they see benefits in the 
future if Broadwater were operational had the assets out there. 
I should just point out to you, Congresswoman, as you are well 
aware that the second largest port in New England is there in 
New Haven Harbor.
    Ms. DeLauro.  You don't have to tell me.
    Mr. Hritcko. You have ships coming in from all over the 
world, not only petroleum products but other cargoes that need 
to be protected but at the same time, there is not the single 
fire fighting tug in Long Island Sound or in the Port of New 
Haven. If you stop to think about the future of Long Island 
Sound with the Broadwater facility here, with the assets that 
we would bring to the table, it would help the Long Island 
Sound under a mutual aide packet that would be developed within 
the emergency response plan. We could now offer some cover for 
marine type of activities.
    Ms. DeLauro.  We pay a very high price for that Mr. 
Hritcko, and I will tell you that the Federal Government in its 
recent budget cut out fire fighting assistance and grants which 
would allow municipalities like New Haven and others to get the 
kind of equipment they need to do the job that they need. The 
introduction of this Broadwater facility would create an 
unbearable burden on locations within our State and within the 
State of New York.
    I would dare to say to you at this moment that the 
difficulties and the inability with regard to resources to 
address these efforts certainly, I mean, outweigh at the 
moment, the benefits of what you are talking about. And I don't 
believe there's a public official in the State of Connecticut, 
a public official in the State of New York and community groups 
and individuals, who believe that this will inure to the best, 
to continued safety of both of our States. Don't get me started 
on that.
    Mr. Hritcko. I would comment----
    Mr. Flynn. One thing I would like to add and I think it is 
important to keep in context and that is the LNG tanker is not 
a particularly soft target. It's very difficult because of the 
way it is designed for a small boat to be able to successfully 
breech an internal tank. The amount of explosive required, that 
scenario would be very difficult. I think what's important to 
keep in balance here is that there are so many other soft 
targets in the maritime community of which there are inadequate 
resources. So it's hard for me to say LNG by definition raises 
the risk up tremendously.
    It's brought focus on an issue that all communities face 
and I share your concerns and outrage that we're not able to 
marshal Federal resources to provide better preparedness to get 
the States involved, but overall attacking a tanker in the 
middle of the Sound is a difficult thing to do and its 
consequence on populations won't be there. If I'm an adversary, 
I'm going after the heart of New Haven, and bigger population 
because it would cause a bigger disruption of that harbor. I 
guess part of the issue----
    Ms. DeLauro.  I think as I said it is very balanced 
testimony and I much appreciate the balanced view. I would just 
say in interpreting what you're saying, we had a total 
inability, if you want to talk about a Nation in all levels of 
government that could not respond or privately individuals that 
could not respond, it's the national disaster of hurricanes.
    You take a look at Katrina. There was--this didn't come 
from outside. This came from within. And the government at all 
levels failed the people on the Gulf Coast and are continuing 
in my view to fail them in terms of their ability to try to 
pick up and to move on.
    What we're trying to do here is to be preemptive and try to 
take a look at what is necessary in order to meet a need. And 
so far I don't believe we have the review that the resources 
are there in order to be able to handle this and other venues.
    Mr. Hritcko. Congresswoman, I appreciate your position on 
this. I'm not here to debate on how we got to where we are. 
This is the type of debate that we need to have around how 
we're going to meet our needs in the future and also recognize 
all of the aspects of this facility. I'm just simply stating to 
you what I've been told by some of the emergency first 
responders who are charged with ensuring safety and security of 
our ports, harbors, and people and we have to recognize that 
there, in fact, some upsides to having those facilities in the 
Sound.
    Ms. DeLauro.  Mr. Chairman, if I might, the question I 
asked of the last panel; where will the vessel be constructed?
    Mr. Hritcko. Likely in an Asian shipyard because those are 
the--Korea or Japan because those are a shipyards that are 
currently constructing LNG carriers. Most of the LNG carriers 
are specialized vessels and require specialized equipment. This 
is simply an LNG carrier without propulsion. So the United 
States is good at building nuclear submarines and other 
specialties ships. They don't build any LNG carriers at the 
time so I would say it's highly unlikely we will see the LNG 
carrier built here.
    Ms. DeLauro.  Will there be U.S. crews, or are the tankers 
foreign flagged; will there be U.S. crews on these ships?
    Mr. Hritcko. With regard--Broadwater will own and operate 
the terminal itself so we don't have a position or an 
understanding specifically of what the tankers will have. There 
may be a variety. We expect, looking at the international fleet 
which is a number somewhere in the order of 100, 185 LNG 
carriers at the current level that they would probably be a 
combination.
    Ms. DeLauro.  A combination of foreign flagged----
    Mr. Hritcko. Foreign flagged, a combination of crews. We're 
looking at an international trade with multiple parties both 
developing the LNG----
    Ms. DeLauro.  I'm told there are no U.S.-flagged----
    Mr. Hritcko. That's right. There are no U.S.-flagged 
vessels.
    Mr. Flynn. I think it's important to keep in mind here 
there are only just under 300 U.S.-flagged vessels of greater 
than 1,000 tons. So there is not a whole lot out there period. 
So it would with very unlikely under current market forces that 
this would be a U.S.-flagged vessel.
    Mr. Bishop. My understanding is there are no U.S.-flagged 
vessels of 200 vessels currently importing LNG, none of them 
which are U.S.-flagged vessels. My understanding further is 
that there are approximately 100 vessels that are expected to 
be constructed over the next several months--several years, 
pardon me--and none of them will be U.S.-flagged vessels. It 
will be all foreign flagged vessels.
    They will be crewed in large part by non-U.S. national 
crews and therefore not subject to the jurisdiction or to the 
oversight of the Coast Guard in the same way that Merchant 
Marines of the United States would be subject. And I think 
that's one of the concerns that I have is that these tankers 
are going to be transiting within a mile or mile and a half of 
both the New York coast and some cases the Connecticut coast 
and we don't know a thing about who is on them.
    And my further understanding is that because LNG, the need 
for LNG is growing, that there is a crew shortage and that 
certain carriers are ocean crewed from other carriers. Thus we 
have crews on boats with which they are not familiar and these 
are highly sophisticated and highly complex boats, all of which 
seems to be--gives rise to enormous concern about the safety 
and the way in which the LNG would get to the terminal. Can you 
comment on that, Mr. Hritcko.
    Mr. Hritcko. Yes. Congressman, I am afraid your information 
is not correct about security and safety of crews. In fact, it 
doesn't matter whether it is a U.S. crew or a foreign national 
crew, they are subject to security reviews both international 
and U.S. security reviews by the Coast Guard.
    There is a 96 hour requirement to report who is on board, 
what the vessel is carrying, when it's going to arrive. There's 
extensive review of the vessel before it leaves it ports of 
origin before proceeding to the United States so there is the 
tremendous amount of security on that vessel.
    Mr. Bishop. Let me interrupt you. Is the international 
review, does it rise to the same level the same standard as the 
United States' review.
    Mr. Hritcko. The international parties have all signed onto 
the same standards that the United States----
    Mr. Bishop. Do you have the same level of confidence or is 
it reasonable for us to have the same level of confidence in 
the international review that we would have for a domestic 
boat.
    Mr. Hritcko. Clearly there's some parties that are more 
stringent on their requirements than others, but we have had no 
incident with LNG throughout the history of LNG of having a 
problem with the crews or ships. And we have come from all 
parts of the world including Algeria. I point out in Algeria 
was our largest supplier of LNG in Boston Harbor for many years 
and we've never had a problem. So if history is a prelude to 
what we are seeing in the future, we have had extensive and 
very good operating history on that.
    The other point that I would point out to you, yes, we are 
in fact in a growing business. There is a large number of 
carriers that are going to be needed in the future. Your 
numbers are approximately correct. We're doubling the size of 
the LNG fleet that we just had in effect over the last 10 
years. So there will be a tremendous need for crews. However, 
crews have to be competent, they have to be experienced, and 
they have to be cost effective for these vessels to be 
operating. And those are key elements so we will have to look 
at all avenues of being able to double the size of that fleet 
and have competent and effective crews on board these vessels.
    Ms. DeLauro.  Mr. Chair, just I think that it would 
interesting to know that I understand Shell Oil will build 28 
ships, none of them will be U.S.-flagged. You mentioned 
Algeria, not in connection with Boston, but in January 2004 
Algeria. . . Explosion. . . Massive vapor cloud, fire, 
explosion and fires destroyed a portion of the LNG tanker, 
caused death injury. . . . Outside the plant outside of the 
plant's boundaries.
    Mr. Flynn. If I may, Mr. Chairman. The reality is we have a 
global industry here in the Merchant Marine, and the real 
challenge is are we setting adequate standards throughout that 
industry to assure that whoever is coming through, whether from 
Des Moines or from Dubai or wherever, that, in fact, that 
there's adequate security for that vessel. I think there has 
been some improvement since 9/11. Of the industry and crews 
that I worry about, LNG falls low in that area because of, one, 
you have to double the size of the crews normally available for 
a vessel of similar size. The level of qualification is so high 
that the ability to run an internal conspiracy within that ship 
would be very difficult without being noticed.
    And also it becomes like a milk run, it's the same vessel, 
it's the same process, and it's much easier therefore to vet. 
So some of the other safeguards in place, the issue of foreign 
crew and of course within U.S. waters, Block Island Sound here, 
it will be highly boarded it will be met and escort, so we'll 
know exactly what's coming when it's coming.
    I've made the pitch that what we should do though is have 
point of origin inspections. We should have a government agent 
at the loading point and ideally even ride out with the LNG to 
the sea buoy so you have confidence what it's vetted is what's 
leaving. Then you know by ongoing tracking what gets here and 
you don't have to worry so much about the in between, you track 
the vessel all the way over.
    But I would like to see like we do with containers these 
point of origin controls, to these hazardous cargoes a similar 
approach and then you can basically improve the confidence 
vetting improves, vetting the vessel.
    And clearly while it's being loaded would be an ideal time 
to do that. That's a resource issue, having resources to be 
given to people. Given the hazards involved, I think it's worth 
making that investment.
    Mr. Bishop. Thank you very much. I just have one more 
question. From Mr. Johnson we've heard an awful lot about 
relying on local resources, we heard about cost sharing, just 
tell me, Wading River Fire Department, all volunteer, what do 
you need to do? What needs to believe added in terms of 
personnel in terms of equipment, to respond to a fire a mile 
and a half offshore, nine point two miles offshore, just walk 
us through what your thought process would be and what 
additional resources you would have to have in order to have 
any hope of reasonably responding in such an emergency.
    Mr. Johnson. Well, as I said earlier, I think one of the 
challenges that we have is we need to be become better educated 
as emergency first responders to exactly what this hazard is 
and to becoming more familiar with all of the body of knowledge 
that's out there. This is certainly something that's new.
    However, we're used to dealing with our own hazards. If we 
have structure fire, if we have a vehicle fire, if we have a 
rescue close to shore, we trained for that, we're comfortable, 
we're competent in that. This is something that is very new and 
very foreign.
    So, yes, there are definitely going to be assets but we are 
not as far along in our understanding of this process for 
example as the Coast Guard is. So I don't feel that we can 
develop a list of assets yet. There are certainly going to be 
things that are going to be needed. As Captain Boynton said, I 
think my role now is to point out that there are going to be 
additional assets and not only physical assets, possibly 
personnel, certainly additional training.
    Even as we go through the process of looking at appropriate 
mitigation strategies and understanding the components of an 
emergency response plan, the officers, the chiefs, and 
commissioners that are part of the local response force need to 
get up to speed in terms of the body of knowledge that's out 
there. So I have to beg off on the question just a little bit 
and say that there will be additional assets that will be 
necessary, there will be additional personnel that need to be 
trained but exactly what extent, I don't think it's fair to 
give you an estimate on the record to that.
    I think one other point, while we look at our partnerships 
and I know the Coast Guard is too, that anybody in this area is 
concerned with security, I don't think that it's appropriate 
that we give every local first responder all the assets and the 
personnel and the training that would be necessary to handle an 
event. We have resources on the coast of Suffolk County. We 
have resources in Connecticut. We have Coast Guard resources. 
We have police assets, do we think about those in terms of 
security, they're certainly available for rescue and you might 
be able to equip them for fire fighting.
    So I think that we can better utilize our resources as we 
go through this process of appropriate mitigation strategy and 
our response plan. So that we're not duplicating, because 
resources are obviously extremely tight. I think we want to be 
able to take again the strengths we have on both coasts of both 
States to make sure we are as well equipped as possible but 
would do so as economically or financially responsible as we 
can.
    Mr. Bishop. One other question. Mr. Hritcko, the two 
projects recently licensed off of Massachusetts, both 12 plus 
miles offshore, very little local opposition, and that there 
was both Coast Guard--they were licensed both by the Coast 
Guard and the Maritime Administration. Why not put Broadwater 
12 plus miles offshore? Why this location and why not an 
alternate location that would be safer perhaps and have less 
concerns with respect to interference with commercial fishing, 
recreational boating, whatever it is, and certainly using 
Massachusetts as a model, less local opposition, so why not 
move in that direction?
    Mr. Hritcko. We did an extensive, very extensive 
alternatives analysis as I point in my testimony and is 
contained in the FERC application, both, as I said before, 
onshore and offshore locations both Long Island Sound and else 
where. What drove our decision was essentially three things; 
reliability of that supply, the ability to move the gas to the 
market to meet the market's needs, and safety and security.
    We had defined the best location in order to meet these 
three key areas, so that we could provide plentiful, 
affordable, reliable supply to this region. This location on 
the Long Island Sound did just that. That is why the----
    Mr. Bishop. Let me interrupt. Are you suggesting that the 
Massachusetts facilities failed that test?
    Mr. Hritcko. No, not at all. Massachusetts facilities we 
looked at the characteristics of the market in that particular 
area and those proposals were acceptable and you had said very 
little opposition. I beg to differ. But if you look at the 
record there was a tremendous amount of opposition because they 
had a lot of activity particularly in the locations they had 
because of fishing and other areas out there. But the fact of 
the matter is you have to look at these on an individual basis 
at each location.
    We looked at this region to serve the New York Long Island 
Connecticut market region specifically and we found that after 
our extensive review that this location would be the best 
location to serve this region.
    Mr. Bishop. Thank you.
    Congresswoman DeLauro.
    Ms. DeLauro.  Just to make a comment and I have a final 
question for Mr. Hritcko. Dr. Flynn, I, too, understand the 
increase of, you know, globalization and what that means in 
terms of vetting crews, et cetera. A totally different example 
that maybe, I hope I'm not comparing apples to oranges. I chair 
the Subcommittee on Agriculture, the Appropriations Committee, 
and that committee has jurisdiction over the Food and Drug 
Administration.
    I think most recently we have seen, and this is an area of 
real globalization, we are looking at continued volume of 
imported food into the United States.
    Quite frankly we do not have, we're now looking at 
equivalent standards in terms of products et cetera that's 
coming into the United States. We see yesterday's New York 
Times that we have product coming in terms of drugs killing 88 
people in I think, I'm not sure if it was Haiti--Panama, in any 
case I understand that we are in a global economy, global world 
but I think it goes to your point that unless we are willing to 
deal with technology and the resources that allow us to monitor 
the process of what is happening with what's coming into the 
United States, whether it's a or whether it's a product, that 
it's not going to put at risk the safety here.
    We're not shutting down our borders. We want to have our 
borders open. But we certainly want to protect it and the 
incidents I am dealing with, we want to protect the public 
health with regard to food and drugs. We want to deal with 
protecting--with crew or anyone else--where there are standards 
that are internationally reviewed and reviewed so that we know 
that the people are being trained here and the people that are 
being trained at Broadwater have the same kind of training so 
that we're putting everyone not at risk but we're ensuring 
their safeguard and I watch it fail on one side, failing 
miserably on one side so it's of concern.
    Mr. Flynn. I couldn't agree with you more that 
globalization needs sustainable paths to figure out how we 
manage these risks within that context. The good news on the 
maritime story is--well, it's sort of good news bad news. From 
my perspective, I wish we had this conversation in the late 
1950s and '60s about the globalization of the maritime 
industry, from a merchant mariner's standpoint I wish we had 
that conversation here. We didn't.
    The good news side of that is for 50 years we have been 
developing an international regime that deals with this risk 
that doesn't exist within the food sector. So there is a 
baseline to build a advanced standard that's fairly rigorous, 
not nearly where I want it to be but it's much further along.
    I often point to these other sectors looking at models in 
the Maritime realm that can be drawn with a lot more teeth in 
them, a lot more explicit----
    Ms. DeLauro.  I want to see ships coming into our ports as 
well where we know what the cargo is and we have a way of 
dealing with that and we have not been able to deal with that 
in the last several years.
    Final question for me, Mr. Hritcko, the floating storage 
unit with regard to hurricanes, and help us in this regard. 
What size hurricane could it withstand? You looked at the 
offshore terminals in the gulf and they failed in Katrina and 
Rita. Can you describe by the design of Broadwater, is it more 
likely to survive a Katrina or Rita like storm?
    Mr. Hritcko. This facility is designed to withstand a 
category five hurricane. A Katrina type of hurricane. We know 
from looking at the records and we know from meteorological 
data and whatnot that the occurrence of a category five is 
virtually impossible in this area. As a matter of fact, the 
storm of record that everyone points to is the 1938 hurricane 
and that was the equivalent to a category three.
    So this facility could withstand the '38 hurricane and much 
more beyond that. I think from our analysis and from what our 
engineers have said, that we would have much larger problems 
elsewhere if Broadwater were hit by a larger storm of that 
nature.
    Ms. DeLauro.  Thank you.
    Thank you, Mr. Chairman.
    Mr. Bishop. Thank you very much. I am going to excercise 
the Chair's prerogative to have the final word. And that is it 
seems that there's only one known, and that known is that we 
will become increasingly reliant upon LNG as an energy source. 
And virtually everything else is unknown. We don't know how 
much it is going to cost for the Coast Guard to secure this 
facility. We don't know if the Coast Guard has the resources. 
We don't know at what cost to the other functions the Coast 
Guard has to undertake that securing this facility will take. 
We don't know what demands will be placed on local government. 
We don't know what those will cost. We don't know to what 
extent their ability to step up to the plate in terms of 
providing security or response. And will it effect their--their 
ability to do their core functions. We don't know with any 
degree of certainty, respectfully, Mr. Hritcko, whether or not 
this $300 number is a number that we can rely upon. We don't 
even know what gas is going to cost tomorrow.
    So it seems to me, as I said, we have one known. We have a 
great many unknowns. And in my own view, that there be 
unknowns, the absence of answers, and the risks that's involved 
suggest that at this time it's not prudent to move forward on 
this project.
    But with that, let me thank our panelists for their 
testimony. I know you also came a great distance some of you to 
be here. It was very important testimony and I thank all of you 
for coming. The hearing is adjourned.
    [Whereupon, the subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                    

</pre></body></html>
